<html>
<title> - CHU, COOK, JARRETT, AND WATSON NOMINATIONS</title>
<body><pre>[Senate Hearing 107-374]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-374

               CHU, COOK, JARRETT, AND WATSON NOMINATIONS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                                 on the

  NOMINATIONS OF DR. MARGARET CHU, NOMINEE TO BE DIRECTOR, OFFICE OF 
 CIVILIAN RADIOACTIVE WASTE MANAGEMENT, DEPARTMENT OF ENERGY; BEVERLY 
                     COOK, NOMINEE TO BE ASSISTANT 
 SECRETARY OF ENERGY FOR ENVIRONMENT, SAFETY AND HEALTH, DEPARTMENT OF 
               ENERGY; JEFFREY D. JARRETT, NOMINEE TO BE 
    DIRECTOR, OFFICE OF SURFACE MINING RECLAMATION AND ENFORCEMENT, 
 DEPARTMENT OF THE INTERIOR; AND REBECCA WUNDER WATSON, NOMINEE TO BE 
 ASSISTANT SECRETARY, LAND AND MINERALS MANAGEMENT, DEPARTMENT OF THE 
                                INTERIOR

                               __________

                            DECEMBER 5, 2001


                       Printed for the use of the
               Committee on Energy and Natural Resources


78-598              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman
DANIEL K. AKAKA, Hawaii              FRANK H. MURKOWSKI, Alaska
BYRON L. DORGAN, North Dakota        PETE V. DOMENICI, New Mexico
BOB GRAHAM, Florida                  DON NICKLES, Oklahoma
RON WYDEN, Oregon                    LARRY E. CRAIG, Idaho
TIM JOHNSON, South Dakota            BEN NIGHTHORSE CAMPBELL, Colorado
MARY L. LANDRIEU, Louisiana          CRAIG THOMAS, Wyoming
EVAN BAYH, Indiana                   RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         CONRAD BURNS, Montana
CHARLES E. SCHUMER, New York         JON KYL, Arizona
MARIA CANTWELL, Washington           CHUCK HAGEL, Nebraska
THOMAS R. CARPER, Delaware           GORDON SMITH, Oregon

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               Brian P. Malnak, Republican Staff Director
               James P. Beirne, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................     3
Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     1
Burns, Hon. Conrad, U.S. Senator from Montana....................     2
Chu, Dr. Margaret, Nominee to be Director of the Office of 
  Civilian Radioactive Waste Management, Department of Energy....     9
Cook, Beverly, Nominee to be Assistant Secretary of Energy for 
  Environment, Safety and Health, Department of Energy...........    11
Craig, Hon. Larry E., U.S. Senator from Idaho....................     2
Domenici, Hon. Pete V., U.S. Senator from New Mexico.............     4
Jarrett, Jeffrey D., Nominee to be Director, Office of Surface 
  Mining Reclamation and Enforcement, Department of the Interior.    16
Murkowski, Hon. Frank H., U.S. Senator from Alaska...............     3
Watson, Rebecca Wunder, Nominee to be Assistant Secretary, Land 
  and Minerals Management, Department of the Interior............    14

                               APPENDIXES


                               Appendix I

Responses to additional questions................................    25

                              Appendix II

Additional material submitted for the record.....................    35

 
               CHU, COOK, JARRETT, AND WATSON NOMINATIONS

                              ----------                              


                      WEDNESDAY, DECEMBER 5, 2001

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Jeff 
Bingaman, chairman, presiding.

           OPENING STATEMENT OF HON. JEFF BINGAMAN, 
                  U.S. SENATOR FROM NEW MEXICO

    The Chairman. The committee has before it this morning the 
nominations of Margaret Chu to be the Director of the Office of 
Civilian Radioactive Waste Management at the Department of 
Energy, Beverly Cook to the Assistant Secretary for 
Environment, Safety, and Health at the Department of Energy, 
Jeffrey Jarrett to be the Director of the Office of Surface 
Mining Reclamation and Enforcement at the Department of the 
Interior, and Rebecca Watson to be the Assistant Secretary for 
Land and Minerals Management at the Department of the Interior.
    Without objection, the questionnaires, the financial 
disclosure statements, and the prepared statements of all four 
nominees will be entered into the record.
    The President has nominated these four individuals to posts 
of the utmost importance to the work of this committee, the 
States that we represent and, of course, to the Nation. Each of 
these jobs faces difficult and pressing challenges.
    The Director of the Office of Civilian Radioactive Waste 
Management is responsible for advising the Secretary of Energy, 
and ultimately the President, on whether to build the nuclear 
waste repository at Yucca Mountain. If the President makes the 
recommendation, the Director will be responsible for 
establishing the scientific and technical basis for the Nuclear 
Regulatory Commission's decision to license the repository. 
This program is already far behind schedule. It faces serious 
opposition within the State of Nevada and its elected 
representatives. It is beset by serious budgetary and technical 
challenges, and it has recently come under severe criticism by 
the General Accounting Office.
    The Assistant Secretary for Environment, Safety, and Health 
has the important job of protecting the health and safety of 
Department of Energy workers and the public and, of course, the 
environment from any Department of Energy operations. She also 
plays an important role in implementing the energy employees 
Occupation Illness Compensation Program, which we enacted this 
last year in Congress. As one of the principal sponsors of that 
legislation, I'm troubled by the direction that the Department 
seems to have taken in its draft rules on the program. They 
appear to me to be at odds with the intent that Congress had in 
passing the legislation, and we need to find an opportunity to 
explore that further.
    The Office of Surface Mining is responsible for overseeing 
State programs regulating coal mining and abandoned mine 
reclamation and for regulating mining and reclamation on 
Federal and Indian lands. The Assistant Secretary for Land and 
Minerals Management oversees the Office of Surface Mining as 
well as the Mineral Management Service, the Bureau of Land 
Management, which manages more than a quarter of a billion 
acres of land in the western United States, over a billion 
acres of sub-surface mineral estate.
    All these programs are of fundamental importance to members 
of this committee. We share a common interest in seeing these 
jobs filled with capable people, and hopefully before we 
adjourn this year, filling these positions. We also share a 
common interest in wanting to work with the nominees once 
they're confirmed, to see that their important programs are 
properly implemented and managed.
    Senator Murkowski is not here yet. Let me see if any of my 
colleagues on the Republican side would like to make opening 
statements at this time.
    Senator Burns.

         STATEMENT OF HON. CONRAD BURNS, U.S. SENATOR 
                          FROM MONTANA

    Senator Burns. Mr. Chairman, I only have a statement with 
regard to the introduction of one of the nominees this morning. 
But I would just say at this point, if introductions are not 
apropos now, that I appreciate all four of them stepping 
forward and doing this. I don't know of nominees that we have 
had before this committee that carries more expertise and 
knowledge of the office of which they are about to enter than 
the nominees we have before us.
    And I thank the chairman for holding these hearings. We're 
appreciative of that, and we hope that these nominations can be 
moved along and confirmed very quickly. And thank you, Mr. 
Chairman.
    The Chairman. Alright. Senator Craig, did you have any 
general comments before we--I know that you wish to make an 
introduction of one of the nominees, and Senator Burns, also. 
Did you have any other comments?

        STATEMENT OF HON. LARRY E. CRAIG, U.S. SENATOR 
                           FROM IDAHO

    Senator Craig. Well, I'll hold my introduction until later, 
but I guess the only person I've not met here is Jeffrey 
Jarrett, and I do look forward to working with him.
    As Jeffrey knows, and as this committee knows, we've tried 
to reform the 1872 mining law numerous times here over the last 
decade to give a variety of new authorities in the 
responsibility of mining on public lands and environment 
protection and balance. We've been largely and, strangely 
enough, by the environmental community. And I hope that under 
your presence, again, we can revisit that law. It is a law that 
deserves to allow all of the court tests against it to be 
brought into the public policy in a way that I think balances 
stewardship and, I would hope, gets us back in the business of 
mining in this country. I do not see that as a hostile 
activity.
    To the rest of you, I look forward to your service in the 
Department and working with you. And I'll save my introduction 
until later, Mr. Chairman.
    The Chairman. Well, Senator Murkowski, did you have an 
opening statement?

      STATEMENT OF HON. FRANK H. MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Senator Bingaman. Well, I'm 
pleased that we're holding the hearings this morning. It's been 
a while. As we look to the ultimate wind up of this portion of 
Congress, I certainly think it's appropriate that we have such 
qualified nominees.
    Margaret Chu, Director of the office of Civilian 
Radioactive Waste Management, and Beverly Cook, Assistant 
Secretary of Environment, Safety, and Health, the Department of 
Energy, and Jeffrey Jarrett, Director of the Office of Surface 
Mining. I want to welcome them, as well as Rebecca Watson, 
Assistant Secretary of the Interior, Land and Minerals.
    It's pretty hard for the Secretaries to operate and perform 
their responsibilities without qualified people, so I hope we 
can proceed with the nominations this morning. I wish you well, 
and I think that we could probably begin.
    The Chairman. Let me see if--Senator Akaka, did you want to 
make any general opening statements?
    Senator Akaka. I certainly do, Mr. Chairman.
    The Chairman. Go right ahead.

        STATEMENT OF HON. DANIEL K. AKAKA, U.S. SENATOR 
                          FROM HAWAII

    Senator Akaka. Mr. Chairman, thank you so much for holding 
this hearing. And I want to add my welcome to the nominees this 
morning and also, if your families are here, to welcome your 
families to this hearing.
    I want you to know I've reviewed your backgrounds and 
believe that you're all well qualified to serve in the 
positions for which you have been nominated. These positions 
offer significant challenges, and I can tell that by the number 
of Senators who are here this morning. And I look forward to 
working with you.
    I know Ms. Margaret Chu, who is currently the Director of 
Nuclear Waste Management Program Center at Sandia National 
Laboratory, who has been nominated to the be the Director of 
the Department of Energy's Office of Civilian Radioactive Waste 
Management. Ms. Chu is an excellent choice for this position. 
She has outstanding technical and managerial credentials. Her 
experience, particularly in Sandia, will be extremely useful in 
addressing some of the, let me say, intractable problems 
associated with the management of the Civilian Radioactive 
Waste.
    Ms. Beverly Cook, who has been nominated to serve as the 
Assistant Secretary at the Department of Energy's Office of 
Environment, Safety, and Health, is highly qualified for that 
important position. Ms. Cook has many years of experience 
dealing with the challenges faced with the Energy Department in 
the areas of environment and safety and health.
    Mr. Jeffrey Jarrett, who has been nominated to serve as the 
Director of Department of the Interior's Office of Surface 
Mining Reclamation and Enforcement, has dealt with diverse 
issues relating to surface mining and has the experience to 
undertake this demanding position.
    Ms. Rebecca Wanda Watson is the nominee the Department of 
the Interior's Office of Land and Mineral Management, and 
appears well qualified for this position.
    And I can say I've come here to welcome all of you here 
this morning and I want to wish you well.
    I thank you, Mr. Chairman, and I want you to know I support 
all the nominations that we are considering, and I hope that 
they will be nominated expeditiously, Mr. Chairman.
    The Chairman. Well, thank you very much. I am informed that 
Senator Domenici wanted to introduce Dr. Chu to the committee. 
And let me call on him at this point.

       STATEMENT OF HON. PETE V. DOMENICI, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Domenici. Senator Bingaman, and Mr. Chairman, I 
appreciate very much being called upon. I just received a phone 
call that I have to go over to the leader's office. I have 
statements that cover three of the nominees, and I want to say 
that most of my remarks are in behalf of Margaret Chu, who I 
highly recommended to the president.
    I'd like to put a statement in indicating her thorough 
background in this field. Obviously, this is one of the 
difficult ones. We don't always make the headway that we--that 
we think we make. Look back 2 or 3 years of effort, and it 
sometimes looks like we're going backward. But I have every 
confidence that if we're going to succeed, you're the kind of 
person that can do it.
    I urge that you really try to make things happen. These are 
areas that clearly we do know what we ought to do. It's a 
question of getting it done and making sure that you deliver 
the message fair and faithfully to people that are affected. 
And I just want to say to the president, he surely picked a 
qualified person, in terms of academics, in terms of activity 
and service, and I wish you the very, very best.
    Ms. Rebecca Watson, I want to say I think you're an 
excellent choice. Senator Bingaman and I come from a State with 
a lot of public domain. We anxiously await filling the entire 
Department with nominees so you can get going at full speed 
with many of the problems and differences of opinion that still 
plague the Department. And I think the President did a very 
good job, in terms of nominating you.
    And Mr. Jarrett, a strong recommendation from Governor 
Ridge is pretty good at this point. He's got a big, and he 
recommends you. That's enough for me. You have a good 
background, and I look forward to this occurring quickly.
    Mr. Chairman, with everything else you've got, it truly is 
considerate of you to call this meeting this morning, and I 
thank you for that.
    The Chairman. Thank you very much. And your statement, of 
course, will be part of the record.
    [The prepared statement of Senator Domenici follows:]

       Prepared Statement of Hon. Pete V. Domenici, U.S. Senator 
                            From New Mexico

    Mr. Chairman, I'm pleased to introduce a New Mexican, Dr. Margaret 
Chu, to the Committee today. She has been nominated by President Bush 
to be Director of the Office of Civilian Radioactive Waste Management 
at the Department of Energy.
    Dr. Chu is an outstanding choice for this tough assignment. Most of 
her scientific career has been dedicated to finding solutions for 
nuclear waste issues:

  <bullet> She supported the EPA and NRC while the regulations for 
        high-level waste were under initial development;
  <bullet> She worked on problems for low-level waste disposal;
  <bullet> She worked on safety assessment of mixed waste; and
  <bullet> She managed research projects on environmental restoration.

    Most importantly, Dr. Chu served, through Sandia, as Deputy Manager 
for the Waste Isolation Pilot Plant (WIPP). There, her technical 
expertise, her management skills and her leadership were instrumental 
to the successful certification of the WIPP. WIPP remains the world's 
one great success story for licensing and operation of an underground 
repository for nuclear wastes.
    At Sandia, her strength in analyzing and developing solutions for 
large, complex problems involving technical, social and regulatory 
issues is well established. She is well known for her excellent 
scientific knowledge, high integrity and dedication. With her passion 
and experience, she is ideally qualified to tackle a program as 
difficult as Yucca Mountain.
    I've discussed with Dr. Chu my concerns with progress on Yucca 
Mountain. She is aware that I've supported funding for Yucca Mountain, 
and that I want progress toward a final decision on its suitability. 
But I've also pressed the view that we should be promptly moving ahead 
with monitored retrievable interim storage at one or more highly secure 
locations and with serious study of alternative management strategies 
for spent fuel.
    I've strongly questioned whether our current policy of simply 
disposing of spent fuel, with no attempt to reclaim its immense energy 
resource, is the best national policy. We may be depriving future 
generations of a precious fuel resource with this short-sighted action.
    Our current approach of keeping spent fuel and other high level 
defense wastes around the nation at many sites until a permanent 
repository opens is poor public policy. While we strive to keep those 
temporary storage sites safe, there can be no argument that the 
materials would be safer in well constructed interim storage areas.
    Technologies like reprocessing, transmutation, and advanced fuel 
cycles can be used to reclaim the energy in spent fuel, recycle some of 
the most toxic components of spent fuel, and end up with waste products 
that are far less toxic and less volume than the original spent fuel.
    Those final waste products will still require a repository, which 
could be Yucca Mountain if it proceeds. But now the toxicity of 
materials in that repository would be dramatically less than spent 
fuel. Serious research is needed to explore the economic and 
environmental implications of such technologies. I've been supporting 
programs to accomplish that goal.
    I was very pleased that the President included both reprocessing 
and transmutation in his National Energy Policy. I certainly hope that 
will translate into strong support for this research in the President's 
next budget proposal for the 2003 fiscal year.
    I support each of the nominees today, but I'd like to comment 
briefly on two more of them. Mr. Jeffrey Jarrett comes with the strong 
recommendation of Governor Ridge. He is well qualified to serve as the 
Director of the Office of Surface Mining at Department of the Interior.
    Ms. Rebecca Watson is an excellent choice to serve as Assistant 
Secretary of the Interior for Land and Minerals Management. She will 
bring her experience in practice of environmental and natural resource 
law. Her current work, plus her experience in the former Bush 
Administration should prove useful as the current Administration 
balances environmental concerns with energy needs. As the Committee is 
well aware, this is vital considering the role public lands should play 
in this current energy crisis.
    With so much public land in New Mexico, we face a variety of 
challenges. Some of these include:

  <bullet> Permit renewals for grazing leases and the large backlog 
        that persists with regard to these renewals; and
  <bullet> Oil and gas permit issues for drilling.

    But, these issues do not just exist in New Mexico; they are 
prevalent all across the West. I look forward to working with Ms. 
Watson on the challenges that Western states face in balancing 
resources, conservation and other interests.
    Mr. Chairman, I thank President Bush for these excellent 
nominations and I thank you for holding this hearing. I await the 
opportunity to vote for these individuals on the floor of the U.S. 
Senate.

    The Chairman. Let me call on Senator Craig to introduce Ms. 
Cook or make any other statements he has.
    Senator Craig. Well, Mr. Chairman, thank you very much. It 
is a pleasure for me to introduce to the committee Bev Cook. I 
don't always get the opportunity to say, before the committee, 
on behalf of nominees, that I have known them personally and 
worked with them closely and can recommend them with no 
reservation. That, I can do with Bev Cook.
    As you know, she's been nominated to serve as our Assistant 
Secretary for Environment, Safety, and Health at the Department 
of Energy. She served most recently for the DOE as the manager 
of the Idaho Operations Office, which overseas the Idaho 
National Engineering and Environmental Laboratory. And, of 
course, that's where I've gotten to know Bev the best.
    In addition, she has extensive background associated with 
DOE at its National Laboratories. Earlier in her career, Bev 
spent 12 years working at the INEEL focusing on nuclear reactor 
design and severe-accident research. She also worked here in 
Washington serving as the Principal Deputy Director of DOE's 
Office of Nuclear Energy.
    Also very fitting, given the position for which she is 
currently nominated, Bev served with the Defense Nuclear 
Facilities Safety Board. So she clearly comes qualified. But 
when it comes to human safety and the environment and health on 
our reservations--our national laboratories, the one thing that 
Bev brings along with this expertise is that she is a very 
competent, caring person. I know that. I know that because I've 
watched her work with the people at Idaho. So she comes very 
highly qualified.
    I am privileged to introduce her to the committee. Thank 
you, Mr. Chairman.
    The Chairman. Thank you very much. Senator Burns, you were 
intending to introduce Ms. Watson. Go right ahead.
    Senator Burns. Thank you, Mr. Chairman, and thanks again 
for holding these hearings this morning.
    And it gives me a great deal of pleasure to welcome and 
introduce Rebecca Watson to this committee, her nomination for 
Assistant Secretary for Land and Minerals Management. I'm proud 
to have her representing the State of Montana as a selection to 
lead that Department of the Interior.
    She brings with her job three, and I think four, major 
qualities--her experience, her character, and the understanding 
of the people who are most deeply affected by land-management 
issues, but also another great quality that she has--she also 
understands lands in the West and people in the West, and 
especially the lands and how fragile they are and how--and how 
we have to be responsible to the fragility of those lands and 
the management of them.
    For more than 20 years, Ms. Watson has dedicated herself to 
a better understanding of the law, and especially natural law--
or natural-resource law. As a part of that, her efforts served 
in many capacities, including the clerk of a district court 
judge in Wyoming and in private practice. This nomination to 
the Department of the Interior is not her first experience as 
part of the administration, as she served as Assistant General 
Counsel of the Department of Energy early in the 1990's.
    Most recently, she comes to us from Helena, Montana, where 
she's been practicing in a private practice in 6 years--
managing partner, one of the best known law firms in the State, 
Gaub, Shanahan, Watson, and Waterman. I've had the opportunity 
to work with her on several occasions and have been impressed 
by her direct and thoughtful approach.
    Her focus on natural-resource law will serve her well as 
Assistant Secretary because she has such an incredible 
knowledge in the land, water, and mineral law and how those 
laws affect this country and also individual communities where 
this activity carries on. She knows how to build consensus and 
she's been on the front lines doing that in Montana.
    Twenty-seven percent of the State of Montana is Federal 
lands. And, of course, it affects all of our lives in that 
State. The wealth of the land, our lives depend on agriculture, 
mining, oil, gas development, and, of course, logging. And we 
do these thing in a way that keeps our State beautiful. Becky 
Watson understands that. She understands the balance that 
exists between productive use and pristine settings.
    But I guess what I most admire about her is her desire to 
do the right thing. She will be, I think, very forceful before 
this committee in working with this committee to solve some of 
the problem that we have on our public lands. She is happy with 
her place in the world, and the biggest reason that she's in 
front of us today is because we asked her to serve, and she 
answered the call, stepping forward to serve her country.
    If you show most of the people a picture of Avon, Montana, 
and a picture of Washington, D.C., and had to vote this morning 
where you want to live, I know which would come in second.
    [Laughter.]
    Senator Burns. I'll guarantee you that. So I thank you for 
having these hearings, again, Mr. Chairman. I recommend her to 
this committee, and her confirmation, very quickly. And I thank 
the Chair.
    The Chairman. Well, thank you very much. Rules of the 
committee that apply to all nominees require that they be sworn 
in connection with their testimony. Let me ask each of you to 
rise and raise your right hand.
    Do you solemnly swear that the testimony you're about to 
give to the Senate Committee on Energy and Natural Resources 
shall be the truth, the whole truth, and nothing but the truth?
    [A chorus of ``I do's.'']
    The Chairman. Please be seated. Before you begin your 
statements, let me ask three questions that we address to each 
nominee before this committee. I'll ask the question, and then 
I'll just ask each of you to respond in order, and then I'll 
ask the next question.
    Will you be available to appear before this committee and 
other congressional committees to represent departmental 
positions and respond to issues of concern to the Congress? Ms. 
Chu?
    Ms. Chu. I will.
    The Chairman. Ms. Cook.
    Ms. Cook. I will.
    The Chairman. Ms. Watson.
    Ms. Watson. I will.
    The Chairman. Mr. Jarrett.
    Mr. Jarrett. I will.
    The Chairman. The second question is, are you aware of any 
personal holdings or investments or interests that could 
constitute a conflict of interest or create the appearance of 
such a conflict should you be confirmed and assume the office 
to which you have been nominated by the president?
    Ms. Chu.
    Ms. Chu. My investments, personal holdings, and other 
interests have been reviewed both by myself and the appropriate 
ethics counselors within the Federal Government. I have taken 
appropriate action to avoid any conflicts of interests. There 
are no conflicts or appearances thereof, to my knowledge.
    The Chairman. Ms. Cook, I'd ask if your answer is the same 
as we just heard?
    Ms. Cook. Yes, sir, it is.
    The Chairman. Ms. Watson.
    Ms. Watson. Yes, sir.
    The Chairman. Mr. Jarrett.
    Mr. Jarrett. Yes.
    The Chairman. The third question, are you involved or do 
you have any assets that are held in blind trust?
    Ms. Chu. No.
    Ms. Cook. No, sir.
    Ms. Watson. No, sir.
    Mr. Jarrett. No, sir.
    The Chairman. Let me, at this point, invite each of the 
nominees to introduce any family members they brought with 
them. That's a tradition here in the committee. Ms. Chu, did 
you have anybody here with you you wanted to introduce?
    Ms. Chu. Yes, I have my husband and two of my three 
children. And my husband, T.Y. Chu here, and my son, Arthur 
Chu, and my daughter, Mae Mae.
    The Chairman. Well, we welcome them to the committee 
hearing. Let me ask Ms. Cook the same thing.
    Ms. Cook. Yes, sir. I'd like to introduce my daughter, Mary 
Broughton. She's a senior here at Gaithersburg High School in 
Maryland at this time.
    The Chairman. We've very pleased to have her here.
    Ms. Watson.
    Ms. Watson. Thank you for the opportunity. My father, David 
Wunder, from Indiana, is here, my brother, Dave Wunder, and his 
wife, Rose, from North Carolina, my husband, Greg Watson, from 
Avon, Montana, his mother, Dora Rollings, and her husband, Ed 
Rollings, from West Virginia.
    The Chairman. Well, we're very pleased to have all of you 
here. Thank you for coming.
    Mr. Jarrett.
    Mr. Jarrett. Yes, I'd like to introduce my wife, Janet 
Goodwin, a long-term Federal employee herself, my daughter, 
Sarah, and my son, Tyler.
    The Chairman. Well, we're very pleased to have them here. 
Let's give all these family members a hand.
    [Applause.]
    The Chairman. Okay, at this point, why don't we ask each of 
you to go ahead and summarize your statements, make any 
comments you want in connection with your nomination? As I 
indicated earlier, your complete statements will be made part 
of the record. Ms. Chu, why don't you go ahead?

 TESTIMONY OF DR. MARGARET CHU, NOMINEE TO BE DIRECTOR OF THE 
OFFICE OF CIVILIAN RADIOACTIVE WASTE MANAGEMENT, DEPARTMENT OF 
                             ENERGY

    Dr. Chu. Thank you. I appreciate the opportunity to appear 
before this committee today as the nominee for the Director of 
the Office of Civilian Radioactive Waste Management at the 
Department of Energy.
    Approximately 20 years ago, Congress created this office to 
address the long-term management and disposal of commercial and 
defense-spent fuel and high-level waste from our national 
defense activities. Few envisioned the changes that have 
occurred over the past two decades in both nuclear power 
production and the Nation's weapons complex. However, the 
fundamental mission of this program has never changed--to 
assure the American people that these radioactive materials 
will be safety and securely managed for generations to come. It 
is a mission of vital importance to this nation, and I'm deeply 
honored to be nominated by the President.
    The existence and continuing accumulation of nuclear waste 
and excess defense nuclear materials in this--in the United 
States and globally demonstrates that long-term management and 
disposal is not a matter of choice but a necessity. Prudent 
management of these materials is a profound and enduring 
responsibility of the Federal Government, the international 
community, and of society at large.
    If confirmed as the Director of this Office, my role will 
be to ensure that an efficient management system is in place, 
that our disposal decisions are based on sound scientific 
understanding, and that my organization is responsive to 
Congress, oversight organizations, and the public. These are 
formidable challenges and have been the subject of much recent 
scrutiny.
    I believe I am prepared to meet these challenges. Most of 
my professional career has been in managing nuclear waste 
research programs and organizations. As Director of the Nuclear 
Waste Management Program Center at Sandia National 
Laboratories, I lead a 170-people organization recognized as an 
international leader in waste management scientific research. I 
take pride in the reputation we have earned for scientific 
integrity and open communication with regulators, technical 
review groups and, most importantly, the public.
    From my resume, you know of my long involvement with the 
Waste Isolation Pilot Plant in my home State of New Mexico. 
From WIPP we learned that the spirit of scientific inquiry must 
also be brought to the public policy arena, that we must not be 
aloof nor avoid dialogue, and, perhaps most importantly, that 
the process must be seen as serving the needs of the society.
    Early in my career, I was involved in developing the 
technical basis for the regulation of deep geologic 
repositories for both the Nuclear Regulatory Commission and the 
Environmental Protection Agency. We would debate late into the 
night the issues associated with regulating something for tens 
of thousands of year, speculating on future generations' 
behavior. We understood back then that designing a balance 
between the needs of this generation and the legacy we leave to 
those follow would be the critical question facing future 
managers of the repository programs. It is perhaps fitting that 
I now find myself meeting the challenges we debated over 20 
years ago.
    Earlier this year, Secretary Abraham appeared before this 
committee and committed to ensuring that progress would be made 
on this program and that sound science would govern disposal 
decisions. I am here today to reaffirm that commitment and to 
assure the committee that, if confirmed, I will carry out these 
duties to the best of my abilities.
    I look forward to my association with this committee and 
the Congress, and I will be pleased to respond to your 
questions. Thank you.
    [The prepared statement of Dr. Chu follows:]

 Prepared Statement of Dr. Margaret Chu, Nominee To Be Director of the 
 Office of Civilian Radioactive Waste Management, Department of Energy

    I appreciate the opportunity to appear before the Committee today 
as the nominee for the Director of the Office of Civilian Radioactive 
Waste Management at the Department of Energy.
    Approximately twenty years ago Congress created this Office to 
address the long-term management and disposal of commercial and defense 
spent fuel and high-level wastes from our national defense activities. 
Few envisioned the changes that have occurred over the past two decades 
in both nuclear power production and the Nation's weapons complex. 
However, the fundamental mission of this program has never changed--to 
assure the American people that these radioactive materials will be 
safely and securely managed for generations to come. It is a mission of 
vital importance to our Nation and I am deeply honored to be nominated 
by the President.
    The existence and continuing accumulation of nuclear waste and 
excess defense nuclear materials in the United States and globally 
demonstrates that long-term management and disposal is not a matter of 
choice but a necessity. Prudent management of these materials is a 
profound and enduring responsibility of the Federal government, the 
international community, and of society at large.
    If confirmed as the Director of this Office, my role will be to 
ensure that an efficient management system is in place, that our 
disposal decisions are based on sound scientific understanding, and 
that my organization is responsive to Congress, oversight organizations 
and the public. These are formidable challenges and have been the 
subject of much recent scrutiny. I believe I am prepared to meet these 
challenges. Most of my professional career has been in managing nuclear 
waste research programs and organizations. As Director of the Nuclear 
Waste Management Program Center at Sandia National Laboratories, I lead 
a 170-person organization recognized as an international leader in 
waste management scientific research. I take pride in the reputation we 
have earned for scientific integrity and open communication with 
regulators, technical review groups and most importantly, the public. 
From my resume you know of my long involvement with the Waste Isolation 
Pilot Plant in my home state of New Mexico. From WIPP we learned that 
the spirit of scientific inquiry must also be brought to the public 
policy arena, that we must not be aloof nor avoid dialogue, and, 
perhaps most importantly, that the process must be seen as serving the 
needs of our society.
    Early in my career, I was involved in developing the technical 
basis for the regulation of deep geologic repositories for both the 
Nuclear Regulatory Commission and Environmental Protection Agency. We 
would debate late into the night the issues associated with regulating 
something for tens of thousands of years, speculating on future 
generations' behavior. We understood then that designing a balance 
between the needs of this generation and the legacy we leave to those 
that follow would be the critical question facing future managers of 
the repository programs. It is perhaps fitting that I now find myself 
meeting the challenges we debated over twenty years ago.
    Earlier this year Secretary Abraham appeared before this Committee 
and committed to ensuring that progress would be made on this program 
and that sound science would govern disposal decisions. I am here today 
to reaffirm that commitment and to assure the Committee that, if 
confirmed, I will carry out these duties to the best of my abilities.
    I look forward to my association with this Committee and the 
Congress, and I will be pleased to respond to your questions.

    The Chairman. Thank you very much. Ms. Cook, why don't you 
go right ahead?

TESTIMONY OF BEVERLY COOK, NOMINEE TO BE ASSISTANT SECRETARY OF 
ENERGY FOR ENVIRONMENT, SAFETY AND HEALTH, DEPARTMENT OF ENERGY

    Ms. Cook. Thank you, Mr. Chairman. members of the 
committee, Mr. Chairman, thank you for this opportunity to 
appear before you today in consideration of my nomination for 
the Assistant Secretary for Environment, Safety, and Health at 
the U.S. Department of Energy. I know that you have very 
pressing business and some of you are still working under very 
difficult office situations. So I know these things are 
difficult to schedule at this time, and I appreciate having 
this hearing scheduled on a timely basis.
    The environment, safety, and health challenges of the 
Department of Energy are very complex, and they continue to be. 
That's due, in a large part, to the wide variety of work that 
we do and that we have done, and also the wide variety of 
facilities that we have around the complex. However, DOE 
employs a world-class, highly-skilled, and technically-
qualified work force both in environment, safety, and health at 
DOE headquarters and at our field operations, both with our 
Federal Employees and also with our contractors. And I know 
this firsthand. I have worked with all of these people over the 
last 27 years, and I am truly impressed by the qualifications 
of all of our staff and everyone involved with the Department 
of Energy. I think that gives me some unique experience for 
this job.
    While great progress has been made, especially over the 
last several years in environment, safety, and health, I 
believe that there is much that remains to be done. We've come 
a long way in defining our policies, defining our end goals in 
the areas of health and safety and the environment, but it's in 
the implementation of those policies where sometimes the 
difficulties arise. Let me just give you an example of each of 
the areas.
    In safety, the Department has instituted an integrated 
safety management system. And that system is something that I 
strongly support, that most of our field operations have found 
very, very useful. However, it's easy to be safe if you don't 
do work. And now what we have to do is look at those policies 
and look at the practices we've put in place and look at 
streamlining those things so not only can we be safe, but we 
can do work safely. And that's where we're moving next.
    In the area of the workers compensation programs, again, a 
lot has been done over the last few years to implement those 
programs, but I think there are some real lessons to be learned 
there also. One of the most difficult issues that I have dealt 
with is, in fact, generating a worker's work history. And I 
know that. I'm one of those employees. I have a 27-year history 
with the Department of Energy facilities, and I have complete 
records on my radiation exposure for the last 27 years. But I 
am an engineer, and many times I was in several facilities in 
any given week and many places around the complex in any given 
month. For me to generate where I was for the last 27 years 
will be very, very difficult. And these are my friends and 
colleagues who are sometimes now trying to address where 
they've been and what they were exposed to and if that had 
anything to do with any illnesses they are experiencing at this 
time. So generating those work histories and getting personnel 
processes in place so we can better document people's work 
history is something that we have to move forward with to 
better be able to fulfill our responsibilities in workers comp 
programs.
    Our environmental policies also need some revisiting, only 
because they are also difficult to implement. For those of you 
who have not been to some of the Department of Energy's larger 
sites, not only are they nuclear sites, and high-hazard 
facilities that perform some of the Nation's most important 
programs, but, in fact, most of them are also game reserves, 
and they have a wealth of protected wildlife and native plant 
species. And some of them have some of the last critical 
undisturbed habitats on site. So that is the challenge, to 
deal, not only with critical, very difficult cleanup at these 
sites, to deal with the unique habitats that still exist there 
that we want to preserve, but to also continue the important 
work that we are doing that is often hazardous. Finding 
policies that are implementable in all of those areas are 
sometimes very difficult.
    I believe that it would be my job, as Assistant Secretary, 
to look at the progress we've made to date, though, in all of 
these areas and to look at those policies and programs we have 
in place and see where we might clarify or simplify with some 
of these policies so that we can meet those goals of protecting 
the environment, protecting the health and safety of our 
workers and the communities and the people around our sites, 
but also doing the important job of getting the work done in 
the most cost-efficient manner possible for the taxpayers.
    So, Mr. Chairman and distinguished Senators, it's an honor 
for me to have been nominated for this position by President 
Bush and to be considered by this committee. I would be pleased 
to answer any questions that you have.
    [The prepared statement of Ms. Cook follows:]

    Prepared Statement of Beverly Cook, Nominee To Be an Assistant 
 Secretary of Energy for Environment, Safety and Health, Department of 
                                 Energy

    Mr. Chairman, distinguished members of the committee, thank you for 
the opportunity to appear before you today as you consider my 
nomination for Assistant Secretary for Environment, Safety, and Health 
at the U.S. Department of Energy. I know the committee has many 
pressing demands, and some of you are working under very difficult 
office arrangements. I am especially grateful for the effort you have 
made to schedule my hearing on such a timely basis.
    I regret I did not have the opportunity to meet with all of the 
individual committee members in advance of this hearing. I would like 
to assure the committee that I am interested in meeting with members 
individually after this hearing to address any specific questions you 
may have, and to better under your individual interests and concerns. 
If I am confirmed for this job, I will also make myself available to 
meet with you at any time in the future, should a new issue arise that 
concerns you.
    I am deeply honored to be nominated by President Bush to serve as 
Assistant Secretary for Environment, Safety and Health in the 
Department of Energy. The environment, safety and health challenges 
facing DOE have always been, and continue to be, extremely complex. 
This is due, in large part, to the wide variety of work that the 
Department has and continues to perform for the American taxpayer. 
However, DOE employs a truly world class, highly skilled, and 
technically qualified work force, both within the Office of 
Environment, Safety and Health and in the field operations with our 
federal employees and our contractors. They are capable of meeting this 
challenge. I know this first hand, as I have, over the last 27 years, 
worked with Department of Energy employees and contractors in all of 
these roles. I believe this gives me a unique perspective.
    I am a metallurgical engineer. I received my bachelors degree in 
Metallurgical Engineering from the University of Washington in Seattle, 
Washington. I continued my engineering education with the University of 
Idaho while I working at the Idaho National Engineering Laboratory as a 
contractor. As a contractor, I performed nuclear safety research and 
development, and basic and applied materials research. My experience as 
a supervisor and manager began very early in my career. I have also 
worked as a staff member to the Defense Nuclear Facilities Safety 
Board. I then moved to the Department of Energy's Office of Nuclear 
Energy, first as part of the staff, and eventually as Principle Deputy 
Director of the Office of Nuclear Energy at DOE headquarters. My 
current position is Manager of the Department of Energy's Idaho 
Operations Office. I believe my experience in a wide variety of roles 
with the Department of Energy and it's contractors and regulator has 
allowed me the broadest perspective on what is needed to achieve the 
department's environment, safety and health goals.
    While great progress has been made, especially in the last several 
years, to define environment, safety and health policies, and to put 
programs in place that deal with past DOE practices, much remains to be 
done. Implementation of the new policies has had it's difficulties, as 
I can tell you from my recent perspective as a Field Manager at a large 
DOE's site. For example, I am a strong supporter of the Department's 
integrated safety management system. We have come a long way in putting 
programs in place that assure the safety of our work, both to our 
workforce and to the public. Now we need to look at ways to better get 
work done in that context. We have learned how to be safe. The last 
step in integrated safety management is continuous improvement. That is 
the phase the Department and it's contractors are involved with at this 
time. We need to be safe, but we need to do work in a cost effective 
manner. That is, we need to do work safely.
    The workers compensation programs have begun, with their own unique 
issues. I believe there are lessons to be learned from our part in the 
efforts to date, to make the program more effective. As in all things, 
the proof is in the ability to implement a policy, and to obtain the 
desired results. Generating a comprehensive work history for 
individuals is proving to be very difficult. I know, I am long-term DOE 
worker. I have a complete record of any radiation expose I have had for 
the last 27 years. I do not, however, have a compete record of which 
facility I was in at any given time. I am an engineer. I worked in many 
hazardous facilities, in Idaho and at many other DOE sites. I was often 
in many facilities in any given week. I do not have a clear record of 
my potential exposure to chemical or other environmental hazards. We 
clearly need to look at our personnel records keeping practices, to 
best provide information to our current workforce for future concerns, 
while continuing to assist workers with generating past work histories 
and correlating illnesses to work environments.
    The Department implementation of environmental policies also need 
revisited. Although the intent is clear, our ability to implement these 
policies is sometimes difficult, due to a variety of issues. For those 
of you who have not spent time at some of the larger DOE sites, most of 
them are not only nuclear, high hazard facilities that perform work on 
some of the nations most important programs, but they are also game 
reserves, with a wealth of protected wildlife and native species of 
plants. Many of the sites contain the last of critical undisturbed 
habitats. That is the challenge, to deal with not only some of the most 
well preserved environments, but also some of our nations most 
difficult cleanup challenges and high hazard work, with one set of 
policies. We must look at all environmental issues in order to better 
meet the intent of all of the environmental policies while meeting the 
goal, to get work done in a cost effective manner for our customers, 
you and the American taxpayers.
    I believe it would be my job, as Assistant Secretary, to look at 
the progress we have made since these policies and programs have been 
put in place, and see where we might clarify or simplify implementation 
so that we can best meet the goals of protecting the health and safety 
of our workforce and the public, and protecting the environment. Mr. 
Chairman, distinguished Senators, it is an honor for me to be nominated 
for this position, and to be considered by the distinguished member of 
this committee. I would be pleased to answer any questions.

    The Chairman. Well, thank you very much. Ms. Watson, why 
don't you go right ahead.

  TESTIMONY OF REBECCA WUNDER WATSON, NOMINEE TO BE ASSISTANT 
  SECRETARY, LAND AND MINERALS MANAGEMENT, DEPARTMENT OF THE 
                            INTERIOR

    Ms. Watson. Thank you, Chairman Bingaman, Senator 
Murkowski, and members of the committee. It's humbling to be 
here before you today, and I'm particularly honored to have 
been nominated by the President at this time in our country's 
history.
    I think that the responsibilities of the Assistant 
Secretary for Land and Minerals Management relate directly to 
who we are as an American people. I think we have dual desires. 
We want to have a strong economy in our country. We know that a 
strong economy has to be built on secure energy supplies. Right 
now, over 30 percent of our energy is supplied from the lands 
and minerals that the Assistant Secretary manages. At the same 
time, the American people have a strong desire to protect and 
conserve the special landscapes and the ecosystems and the 
wildlife that live on those systems that make us a unique 
country in the world.
    I believe that the job of the Assistant Secretary requires 
balancing our desire for secure energy without sacrificing 
ecological integrity. I'm confident that I have the background 
to do it. Senator Burns kindly summarized that background, and 
he described where I live and the difficulty of coming back 
here. I do live in a beautiful place. We live on the Little 
Blackfoot River. We can drive an hour and fish the Missouri, 
the Big Blackfoot, the Big Hole River. We have abundant 
wildlife surrounding us, and we love Montana, and we love the 
West.
    I'm coming back here because I hope that I can make a 
difference in the lives of the people who live in the public-
land States. Yes, they live in a beautiful scenery, but their 
economic status is really at the margins of our society, 
particularly in the vulnerable rural communities and the tribal 
reservations. Montana has seven reservations with 14 tribes, 
and they suffer from 70-percent unemployment, disproportionate 
teen suicide rates. Montana has many people in the small towns 
who struggle to make a living and provide for their children by 
working two and three jobs. I'd like to do something to make a 
difference on the ground and still preserve the ecosystems, to 
support the wildlife that provide many benefits that the people 
who live in the West want and that the people around the 
country treasure.
    It's a very tough job. I've gotten a taste of it this week, 
and I'm optimistic, though, that--working together with members 
of the committee, members of the government, tribal 
governments, State governments--that we can work on these 
complex and controversial issues and find common ground. I look 
forward to working with the committee, and I pledge to work 
with you in a collegial fashion and have an open-door policy to 
you, the members of your staff, and to all the parts of our 
public that care about the public lands, about offshore mineral 
development, and certainly surface coal mining.
    I thank you for the time and for putting us into your 
schedule, and I look forward to your questions.
    [The prepared statement of Ms. Watson follows:]

 Prepared Statement of Rebecca Wunder Watson, Nominee To Be Assistant 
  Secretary, Land and Minerals Management, Department of the Interior
    Chairman Bingaman, Senator Murkowski, and Members of the Committee:

    It is a humbling experience to come before the United States Senate 
today. Our country is now faced with a heightened challenge to its 
security. I am deeply honored to have been nominated by President Bush 
to serve at this critical time. The events during and after September 
11th have reawakened our pride in America and have underlined the 
goodness and strength that lies in the singular diversity of our 
citizens.
    I believe that the responsibilities of the Assistant Secretary for 
Land and Minerals Management for the Department of the Interior are 
related directly to who we are as a Nation. The Office of Surface 
Mining, Minerals Management Service and the Bureau of Land Management 
together provide over 28% of our Country's energy. These bureaus also 
provide timber, clean water, forage for grazing, wildlife habitat and 
significant recreation opportunities for the rapidly growing 
populations of the West. In exercising the responsibilities of this 
office, the Assistant Secretary must seek to balance our desire for a 
strong and secure economy with our Country's equally strong desire to 
protect the landscapes and ecosystems that make our country unique.
    I think most Americans share the same goal--that we have a secure 
energy foundation for the continued strength of the American economy, 
but that this security is achieved in a way that does not sacrifice the 
environment for short-term gain. I believe that the public lands and 
minerals can continue to play a key role in contributing to the 
strength of the national and regional economies, without sacrificing 
their ecological integrity.
    Congress, in a series of laws, has provided clear management 
direction for public resources--the multiple use concept. Multiple use 
management recognizes the diverse benefits provided by public 
resources--food for our table, timber to build homes, energy to light 
and heat those homes, recreational opportunities to challenge and 
educate us, and landscapes to refresh our spirits and to support 
wildlife. The foundation of the multiple use concept is 
sustainability--meeting those needs not just for today but for the 
future generations of American citizens. Sustainability--or finding 
that balance between today's demands and future expectations for public 
resources--is the challenge that an Assistant Secretary of Land and 
Minerals Management must grapple with every day she is on the job. I 
pledge to the Committee that, should I be confirmed, I will meet this 
challenge with hard work, honesty and a dedication to finding fair and 
balanced solutions to public resource management issues.
    I am confidant that I have a background that will help me fulfill 
this responsibility to the American people. A first-generation American 
mother and a father whose ancestors immigrated on the Mayflower raised 
me in the Midwest. I was brought up to love and honor this Country, to 
appreciate its diversity, to work hard for my employer, to find 
pragmatic solutions and to believe that through education I could 
achieve anything. Sitting here today before this Committee, I know that 
the guidance of my parents and grandparents was correct. I commit to 
bring those same values to the responsibilities of this position.
    I have lived most of my adult life in the Rocky Mountain West. I 
left the prairies of the Midwest for the Rockies after I saw my first 
mountains. The focus of my legal practice has been to serve the people 
and businesses of the West primarily in natural resource development 
and public lands management. I was educated and worked in the ``New 
West'' urban center of Denver, spent a decade in the ``Old West'' 
economy of Wyoming and live now in Montana where the philosophies and 
economies of the New West and the Old West are often in conflict. I 
have worked in Washington, D.C. for five years. First, at the 
Department of Energy helping to develop policy to minimize the 
environmental impacts from the use and production of energy and, next, 
at a private law firm where I primarily represented the timber industry 
on Endangered Species Act and historic resource preservation issues.
    Although I enjoyed the national policy-making opportunities in 
Washington, I returned to the West because I love the landscape, the 
outdoor lifestyle and most of all the western people. I admire their 
combination of independence and willingness to reach out to help others 
in need. Life in the West is not all as portrayed in ``A River Runs 
Through It'' and ``The Horse Whisperer''--people in the rural West 
struggle to find good jobs, contribute to their communities and educate 
their children. As you know, the public land states have a unique 
challenge that results from federal management of from 30-80% of their 
surface area. How the federal lands are managed has a direct impact on 
the health and well being of those states particularly for more 
vulnerable rural and reservation economies.
    I believe that while we must address the sometimes competing 
demands of the larger American public for development and conservation 
of the public lands, we must also help the public land states and 
Tribes develop a diverse and sustainable rural economy. I am optimistic 
that multiple use management and Secretary Norton's guiding principles 
of conservation through communication, consultation and cooperation can 
both meet national needs and help rural and reservation economies find 
a sustainable future.
    If confirmed, I pledge to work with Congress, conservation groups, 
states, Tribes, local communities and natural resource interests in a 
bi-partisan and forthright effort to find that often-elusive balance 
point in the management of public resources. Each of us in this hearing 
room is well-aware that this will not be an easy task or one lacking in 
controversy. I am confident, however, that Americans of goodwill can 
cooperatively work together to find the common ground that best 
reflects the desires of our citizens for a strong economy and for the 
conservation of public resources to benefit present and future 
generations.
    I welcome the questions of the Committee.

    The Chairman. Thank you very much. Mr. Jarrett, go right 
ahead.

TESTIMONY OF JEFFREY D. JARRETT, NOMINEE TO BE DIRECTOR, OFFICE 
               OF SURFACE MINING RECLAMATION AND 
            ENFORCEMENT, DEPARTMENT OF THE INTERIOR

    Mr. Jarrett. Mr. Chairman, members of the committee, it's a 
great honor for me to appear before you today as President 
Bush's nominee for the position of Director of the Office of 
Surface Mining. President Bush and Secretary Norton have paid 
me the highest compliment by recommending me for this position.
    As you know from my background information that you've all 
reviewed, I've had an entire career of involvement, substantial 
involvement, with environmental issues as they relate to coal 
mining in this country. I've seen those issues from three 
perspectives. One, as a manager with the coal industry for part 
of my career. I've seen the issues from the perspective of a 
Federal overseer of State regulatory programs, and, for the 
past 6\1/2\ years, as a front-line regulator of the mining 
industry in the State of Pennsylvania.
    Having looked at these issues from those three 
perspectives, I've learned a few things over the years that I 
would summarize this way. What I've learned is that the 
regulated community can live with any reasonable regulation as 
long as they understand that those regulations are durable. As 
long as they understand what the ground rules are, what's 
expected of them, they can comply with those.
    At the same time, I've learned that part of the problem 
over nearly 30 years of involvement is that things do change. 
The technology changes, the science changes, but, most 
important, the needs and desires of the people that we all have 
a duty to protect change. So I see the challenge as how to 
adapt to those changing attitudes and changing needs of our 
citizens while at the same time providing the stability and the 
consistency that the States and regulated communities need.
    Mr. Chairman and members of the committee, Secretary Norton 
has a vision for citizen-centered governments with a commitment 
to cooperation, consultation, and communication in the service 
of conservation. I fully embrace that vision, because I have 
seen how that philosophy has allowed us to accomplish so much 
in Pennsylvania in the mining program in recent years. And if 
I'm confirmed as the director of Office of Surface Mining, you 
have my promise that I will work with both houses of Congress 
in a nonpartisan way, and you have my promise that I will work 
with all of the stakeholders to make the promise of Federal 
Surface Reclamation Act a reality.
    Thank you for your time today, and I'll look forward to 
responding to any questions.
    [The prepared statement of Mr. Jarrett follows:]

Prepared Statement of Jeffrey D. Jarrett, Nominee To Be Director of the 
Office of Surface Mining Reclamation and Enforcement, Department of the 
                                Interior

    Mr. Chairman and members of the Committee, it is a great honor to 
appear before you today as the President's nominee for the position of 
Director of the Office of Surface Mining. President Bush and Secretary 
Norton have paid me the highest compliment by recommending me for this 
position.
    I started my career almost 27 years ago as an environmental manager 
with the coal industry in the state of Ohio. I was fortunate to work 
back in the mid-1970's in a state that had relatively comprehensive 
reclamation requirements--not too different from the reclamation 
requirements of all coal producing states today. When the Federal 
Surface Mining Control and Reclamation Act passed in 1977, when many in 
industry claimed that they could not comply with the new environmental 
requirements, I knew otherwise because my company had already learned 
how to take care of the land and the water. We had already learned that 
reclamation was not something to be done after the coal was mined, but 
rather reclamation and environmental protection permeated every aspect 
of our operations from land acquisition and planning through coal 
removal and final land restoration. To us, Federal SMCRA meant the 
elimination of the competitive disadvantage from operators in states 
with lesser environmental requirements.
    During my 13-year tenure with the industry, as an environmental 
manager, a general manager and as an executive, I was involved in 
almost every aspect of the coal mining business. I learned what it 
takes to manage a large organization. I learned about the pressures of 
being an employer, of securing coal reserves and contracts, and then 
meeting those contracts while at the same time taking care of the 
environment. I learned how to adapt to change, but more importantly I 
learned that it is often not the environmental regulatory requirements 
that industry has difficulty with, but the uncertainty that those 
requirements will be durable.
    It was my in-depth understanding of the industry and my desire to 
bring about certainty and stability rather than ambiguity and 
indecision that I carried with me to my next career as an environmental 
regulator of the mining industry. For seven years I was the Deputy 
Assistant Director of Program Operations with the Office of Surface 
Mining, primarily responsible for conducting oversight of the eastern 
states in implementing the mandates of Federal SMCRA. For the past six 
years I have been responsible for managing the environmental regulatory 
program over the mining industry in the Commonwealth of Pennsylvania, 
first as a bureau director, and now as the Deputy Secretary for Mineral 
Resources Management with the Pennsylvania Department of Environmental 
Protection.
    Mr. Chairman and members of the Committee, I bring a unique 
perspective earned and learned over a career of involvement with mining 
and environmental issues, as an operator, as a federal overseer of 
state regulatory programs, and as a primary regulator of the mining 
industry in Pennsylvania. But I also bring a more important 
perspective, one learned because I have been involved in the mining and 
reclamation business since the beginning of comprehensive regulation of 
the mining industry. As much as I have always tried to bring certainty 
to the programs I managed, things do change. The nature of the industry 
has changed, the technology has changed, the science that we all rely 
upon has gotten better, and most important, the concerns of the 
citizens we all have a duty to protect have changed, and will continue 
to change. In a world of change and shifting viewpoints, the person who 
is fortunate enough to lead the Office of Surface Mining must be a good 
listener--someone who listens to concerns and viewpoints of all 
stakeholders. I am a good listener, and I understand the challenge of 
finding common ground and common interests upon which to build 
solutions to often very difficult problems. Communication is the key to 
understanding, and the cornerstone of stability and certainty.
    Mr. Chairman, permit me to talk for a few moments about some of my 
accomplishments in Pennsylvania over the past six years of which I am 
very proud. One of my first endeavors in Pennsylvania was a project 
known as the ``Customer Needs Survey.'' That project is just what it 
sounds like--we wanted to take the pulse of citizens, the regulated 
community, the utility industry, the surety industry, our own staff--
all of the stakeholders. We wanted to know the good, the bad, and the 
ugly. We wanted to know what their interests were, what their concerns 
were, and what their ideas were. We held a series of public meetings 
across the state; we empowered the staff, from the ranks of the 
inspectors through the upper levels of management to go to the field to 
knock on doors, to meet with people individually and collectively and 
to report back what they learned. What we learned became the 
cornerstone of our program planning with one simple goal in mind, ``We 
wanted the right people in the right places doing the right things.'' 
And we have stuck with it. This program was praised by Governor Ridge, 
and was later improved upon and expanded to become the standard model 
for Department-wide program planning.
    Here are just a few examples of where this program led us. Our 
stakeholders reinforced their concerns regarding the 240,000 acres of 
unreclaimed abandoned mine lands and the 2700 miles of streams impacted 
by acid mine drainage emanating from those abandoned mines. More 
importantly, we learned that citizens and industry wanted to be our 
partners and play a more active role in the restoration of watersheds. 
Working with these stakeholders we developed numerous programs that 
encouraged the restoration of abandoned mine lands through remining. 
These programs have resulted in as much as $33 million worth of free 
reclamation each year, and have earned Pennsylvania the reputation of 
being the national leader in achieving restoration through remining.
    In addition, three years ago, Governor Ridge and the state 
legislature enacted Pennsylvania's ``Growing Greener'' program--a five-
year, $650 million program that provides grants to local organizations 
for environmental remediation projects. Forty--one percent of those 
funds have been dedicated for abandoned mine land and acid mine 
drainage remediation projects, and local organizations have contributed 
an additional 83 percent in matching funds and work-in-kind.
    Through all of its programs, in the past six years Pennsylvania and 
its partners have reclaimed an incredible 29,500 acres of abandoned 
mine lands, improved 528 miles of acid mine drainage impacted streams, 
and eliminated 150 miles of dangerous abandoned high walls.
    Citizens also expressed serious concerns about the adequacy of 
Pennsylvania's bonding program for active coal mining operations--
concerns that were subsequently reinforced with the filing of a lawsuit 
in Federal court. Today, Pennsylvania is implementing two new bonding 
programs that are more equitable, and that provide the highest level of 
assurance that adequate funds will be available to complete reclamation 
plans on any future forfeiture site. The new bonding system nearly 
doubles the amount of bond required for land reclamation, and 
establishes the first comprehensive program in the nation to provide 
the financial resources for the perpetual treatment of acid mine 
drainage on sites where operators default on their obligations to treat 
water. Once implementation is complete, the financial guarantee program 
for acid mine drainage will provide income producing investments with a 
present value of nearly $400 million.
    The important point that I want to make about Pennsylvania's new 
bonding program is that even though it is costly, it was developed and 
implemented with the unanimous endorsement of Pennsylvania's Mine 
Reclamation Advisory Board--a statutorily created board with voting 
members representing the Citizens Advisory Council, Conservation 
Districts, the mining industry, and members of the state legislature. 
That unanimous support was the direct result of our willingness to 
involve the stakeholders in the development of the program, and to 
address their legitimate concerns.
    Finally, as part of the Customer Needs project, our own staff told 
us that we were not doing a very good job of assigning mine inspector 
priorities. We responded by reallocating our monitoring and compliance 
staff to put our inspectors where the critical needs existed, to 
identify and resolve problems before they became violations. As a 
result industry compliance rose from 83 percent in 1995 to rates that 
have been consistently in the mid--90's in recent years.
    Mr. Chairman and members of the Committee, Secretary Norton has a 
vision for citizen--centered governance with a commitment to 
cooperation, consultation, and communication in the service of 
conservation. I fully embrace that vision because I have seen how that 
philosophy has allowed us to accomplish so much in Pennsylvania in 
recent years. If I am fortunate enough to be confirmed as the Director 
of the Office of Surface Mining, you have my promise that I will work 
in a bipartisan way with both houses of Congress, and you have my 
promise that I will work with all stakeholders to make Secretary 
Norton's vision a reality.
    Thank you for the opportunity to make this statement.

    The Chairman. Well, thank you very much. Let me just ask a 
few questions of each of you.
    Dr. Chu, the General Accounting Office has severely 
criticized the Department of Energy's Nuclear Waste Program in 
a report that was just leaked to the press. We haven't gotten a 
copy here, but we read about it. GAO casts doubt on the 
scientific basis for recommending construction of the 
repository at Yucca Mountain and on whether the Department of 
Energy can get a license from the NRC for that repository.
    Do you have any views that you could share with us on this 
at this point? Does the Department have the technical and 
scientific basis for recommending Yucca Mountain to the 
President and for getting a license from the NRC at this point, 
in your view?
    Ms. Chu. Senator, as regarding the GAO report, I have not 
been briefed by the Department, so I do not have the details 
for that report. And all my knowledge comes from the Washington 
Post. But I do want to let you know that my plan is, if 
confirmed, I will look at this issue seriously and quickly. And 
with my 20-year experience in this area, I'm hoping I can grasp 
the essence of the issues, and then I will like to give the 
Secretary my candid advice and then advocate my opinion to him. 
Thank you.
    The Chairman. Well, thank you. Ms. Cook, I mentioned 
earlier that one of your main responsibilities will be 
implementing this new Energy Employee Occupational Illness 
Compensation Program that we passed in Congress. It was a 
bipartisan effort, and there's been a lot of concern expressed 
about the proposed rules to implement that program.
    I guess I would just ask--rather than trying to get into a 
detailed set of questions about those rules, just ask if you 
would be willing to work with us here in the committee and the 
Congress to be sure that whatever final rule is adopted is 
consistent with congressional intent.
    Ms. Cook. Yes, sir, I'd be very happy to do that. As I 
said, that--my perspective, especially recently, is on the 
implementation end of these things. So I think that I also have 
some opinions on the ease of implementing some of these 
policies, too. I'd be happy to.
    The Chairman. Mr. Jarrett, with most States doing coal 
mining--regulating coal mining themselves, what role do you see 
the Office of Surface Mining playing in overseeing these State 
regulatory programs and the abandoned mine reclamation 
activities?
    Mr. Jarrett. Well, of course, the Federal----
    The Chairman. Do you want to pull that microphone a little 
closer, please?
    Mr. Jarrett. I'm sorry. Federal SMCRA promised a level 
playing field among the States, so I think one of the primary 
roles of Federal oversight of the State programs is to ensure 
that that level playing field exists. Now, that does not mean 
that some States don't have unique circumstances that require 
slightly different treatment, but Federal SMCRA provides some 
minimum standards. And as long as those minimum standards are 
being met in Federal SMCRA, then I think you have delivered the 
promise of level playing fields.
    The Chairman. Okay. On September 24, I sent a letter to 
Secretary Norton on the Salt River Projects mining application 
for the Fence Lake surface coal mine in western New Mexico. 
I've not yet received a response to that. The Zuni Pueblo is 
very concerned about the adverse effects that that mine might 
have on their tribal resources. Is something you're familiar 
with, or could you assure me that you will get familiar with it 
and give consideration to these concerns that we try to raise 
in the letter?
    Mr. Jarrett. Mr. Chairman, I am generally familiar with 
that issue. I understand that some decisions are pending and 
perhaps overdue. So it certainly would be one of the issues 
that I will look further into to get an expeditious and correct 
answer
    The Chairman. I think one of the issues we raised in that 
letter--I raised in the letter--is that the State has imposed 
certain conditions on that project, and we were urging that the 
Department, the Federal Department consider imposing similar 
conditions. And I hope that you will look seriously at that.
    Ms. Watson, you've spent much of your legal career 
representing timber, and mining, and oil and gas interests, and 
that's not uncommon with a successful law practice in the West. 
And I certainly understand that. Can you assure the committee 
that, if you're confirmed, you'll be able to put that aside and 
have the public interests as your primary concern in this new 
position?
    Ms. Watson. Thank you for the question, Chairman Bingaman. 
Yes, I can assure the committee that I will do that. As an 
attorney, I took my representation of my clients seriously, and 
my obligation under legal ethics to represent my clients 
zealously. And I've been known as an attorney to represent our 
clients with passion. I hope to bring that same kind of passion 
and commitment to public service. And I recognize that my 
responsibilities in government service are to the public. And 
that is my--that is where my loyalty will lie.
    The Chairman. One issue that I wanted to just flag for you 
is one that we're hearing more and more about and--in my State, 
at least--and that is land owners and environmentalists are 
contacting us about environmental degradation that they believe 
is being caused by coal-bed methane production in the San Juan 
Basin, in particular. Over the past few years, they've alleged 
that that degradation that's been caused by that increased 
production has been allowed to occur by the Federal agencies, 
and that the BLM, in particular, has not been taken the steps 
it should have taken to enforce the conditions that are 
attached to those leases.
    Is this something you're familiar with? Are you willing to 
look at this problem when you get confirmed and try to help us 
deal with it?
    Ms. Watson. I'm generally familiar with the development of 
coal-bed methane, but, of course, primarily in the Powder River 
Basin of Montana and Wyoming. I understand that the development 
in the San Juan Basin is a little bit different. They're 
dealing with poorer water quality and a more abundant methane 
resource. I think this would be something that I would want to 
take a look at when I got into office. Certainly, I'm aware of 
the citizen complaints, concerns that they expressed for their 
safety and the quality of their water, and I would work with 
the committee to take a look at those and to respond to the 
concerns of the local community.
    The Chairman. Well, thank you very much. Let me defer to 
Senator Murkowski for his questions.
    Senator Murkowski. Thank you very much. I'm going to 
confine my questions to Ms. Watson. And I want to start with 
the North Slope gas development, which I'm sure you're familiar 
with. In this course of oil discoveries, we've found about 36 
trillion cubic feet of natural gas. What we're concerned with 
is the Bureau of Land Management and the Joint Pipeline Office 
and how this project is developed, if, indeed, it is developed. 
The current producers had indicated that, at current prices, 
it's uneconomic at this time. If you're confirmed, will you act 
in your role to provide resources needed to the Joint Pipeline 
Office to help expedite the project?
    Ms. Watson. I'm not familiar with the specifics of the 
Joint Pipeline Project and the funding sources for it, Senator 
Murkowski, but that will be something that I would want to look 
into. I understand the important role that Alaska in providing 
our country with the energy it needs, and infrastructure is 
something that I'm very interested in looking at to make sure 
we have adequate infrastructure in this country.
    Senator Murkowski. Well, there is a Joint Pipeline Office 
proposed in various legislative proposals under the Bureau of 
Land Management, so it would fall under your area of 
responsibility. You're also aware that we have, as a State, yet 
to get completed our land conveyances. We're becoming a little 
frustrated at that. I assume you'll give us your assurance that 
you'll review the current program and try and speed up the 
process. We wonder how long we have to be a State before we 
finally receive all the land that the Federal Government 
promised us.
    Ms. Watson. Thank you for the question, Mr. Murkowski. I 
certainly----
    Senator Murkowski. Is it 50 years, or is it a hundred years 
or--I'll be long gone, obviously, but some of the folks in 
Alaska do remember that.
    Senator Burns talked a little bit about mining. It's my 
opinion that the previous administration, for all practical 
purposes, tried valiantly to shut down the small mining on 
public lands in our country. Through a number of changes that 
Secretary Norton has proposed, we now have re-proposed 
regulations for a 60-day public comment period. It's critically 
important that you and your Department listen carefully to the 
concerns of the small miners, because it isn't just the big, 
large international companies that develop our resources. We've 
always encouraged the small prospector, the small miner. 
Bonding requirements can simply take the small miner and put 
him out of reach of being able to become involved in any 
exploration or development.
    So I would appreciate it if you would give us your 
assurance that you're going to try and review this matter 
closely and provide protection for the small miner, recognizing 
that he has to live within the compliance of the environmental 
oversights.
    Ms. Watson. Senator Murkowski, I'm aware of the importance 
of small miners. Coming from the State of Montana, I understand 
that without small miners, large mining companies don't have 
the discoveries that allow them to produce the minerals that we 
need. Again, this comes back to a question of balance, we need 
to provide for reclamation of the environment with a program 
that works, but I understand the problem, and I will work with 
you to see that it's addressed.
    Senator Murkowski. Two other areas, briefly, the 
preauthorization of the Trans-Alaska Pipeline System, which we 
talked about very briefly, that's up for renewal. It was a 30-
year authorization. It is the only pipeline re-authorization 
that I know of that has ever contemplated a full environmental 
impact statement. The concern we have in Alaska is the 
cumulative impact analysis that some have proposed dreaming up 
questions such as what happens if you extend that pipeline 
another 30 years to air quality in southern California? It's 
license for full employment of all the environmental lawyers to 
just wander off. There's got to be some parameters on this that 
are reasonable. We don't feel it should require a full EIS. An 
environmental assessment has always been the practical 
application on renewals.
    The other issue is lease sales in NPRA Alaska and the 
sensitivity of the lakes and the wildlife in that area. I 
assume you'll familiarize yourself with that, as well, for 
prospective leases that may occur in the future.
    Ms. Watson. Senator Murkowski, I will, and I'll work 
closely with Drue Pearce, in the Department of the Interior, to 
address the issues you raised.
    Senator Murkowski. Thank you. I'm just going to take, Mr. 
Chairman, 30 seconds to put a statement into the record, as a 
consequence of the position of the minority. Rule 16-3 of the 
Standing Rules of the Senate requires that committees fix 
regular weekly, biweekly, or monthly meeting days for the 
transaction of business before the committee.
    And in compliance with that requirement, the Committee on 
Energy and Natural Resources had adopted Rule 2 that provides 
in pertinent part that, quote, ``The committee shall meet on 
the third Wednesday of each month while Congress is in session 
for the purpose of conducting business.'' Neither the Standing 
Rules of the Senate, nor the committee rules, provide an 
exception to the Democratic leader or anyone else to abolish 
committees or order them to cease activities whenever there is 
a likelihood that there may be a bipartisan action that would 
conflict with this partisan agenda.
    Those rules, according to the Democratic leader, evidently 
don't apply to the Committee on Energy and Natural Resources, 
or at least he's made an exception for this committee.
    The point I want to bring up here, for the record, is we 
have rules. We should follow them. Apparently, whenever it's 
convenient, the Democratic leader--to the Democratic leader, 
the rules of the Senate can be suspended, and the rights of 
members of the standing committee of the Senate can be 
abandoned. We have had a notice from the committee chairman 
that this committee is not going to do any further business the 
balance of this Congress, which I find unacceptable and very 
disappointing. I wanted the record to note, from the standpoint 
of our committee requirements and rules, where we are.
    I apologize for interrupting, but we have a vote on, and I 
wish you all well on your nomination process.
    The Chairman. Let me call on Senator Craig. We have--we're 
more than halfway through a vote. Did you want us to adjourn 
and come back so you can ask questions? Or did you want to ask 
your questions quickly?
    Senator Craig. Mr. Chairman, I have several questions. None 
of them are going to make the difference between whether the 
committee decides to vote these fine folks out or not, and so 
let me submit them in writing to each one of the nominees. They 
are important. Clearly, these areas that you've all and we've 
all discussed at the--these ladies and gentleman are going to 
be responsible for are going to be critical to the operation of 
DOE and the Department of Interior and Mining and those issues.
    So for the sake of the nominees who are sitting out there 
and would be for the next 30 minutes, let me do that. I'll 
submit them in writing. And I thank all of you and look forward 
to working with you.
    The Chairman. Well, thank you very much. I also have one 
additional question that I'll submit for the record to Ms. 
Watson related to fire management and the Office of Wild Land 
Fire Coordination.
    We appreciate you all being, and we will try to act as 
quickly as possible on your nominations. And thank you all for 
attending the hearing today.
    [Whereupon, at 10:28 a.m., the hearing was adjourned.]


                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

                                                 December 11, 2001.
Hon. Maria Cantwell,
U.S. Senate, Hart Senate Office Building, Washington, DC.
    Dear Senator Cantwell: Thank you for the opportunity to appear 
before the Committee on Energy and Natural Resources as the Director of 
Civilian Radioactive Waste Management nominee at the U.S. Department of 
Energy.
    Enclosed for the record is the answer to the post hearing question 
submitted to me in writing by you.
    Please let me know if I can be of any further assistance.
            Sincerely,
                                                 Margaret S.Y. Chu.
[Enclosure]

               Response to Question From Senator Cantwell

    Question. Ms. Chu, I recently read a memorandum from Jessie Hill 
Roberson, DOE's Assistant Secretary for Environmental Management, 
stating her top priorities. I was concerned to learn that one of the 
Department of Energy's top environmental management priorities is to 
``Eliminate the need to process high level liquid wastes. HLW 
processing is the single largest cost element in the EM program today. 
Eliminate the need to vitrify at least 75% of the waste scheduled for 
vitrification today. Develop at least two (2) proven, cost-effective 
solutions to every high level waste stream in the complex.'' Clearly, 
following through on this priority could come in direct conflict with 
the Department of Energy's legally binding commitments entailed in the 
Hanford Tri-Party Agreement. What do you think about the cost-
effectiveness of the vitrification process in treating nuclear waste?
    Answer. The current plan is for vitrified waste to be disposed of 
in a geologic repository at Yucca Mountain. However, at this time, I 
cannot comment on the cost of processing and treating this waste 
because it is under evaluation by the Office of Environmental 
Management. If confirmed, I expect that Assistant Secretary Roberson 
and I would discuss issues of mutual importance to integrate our 
program objectives.
                                 ______
                                 
                                                  December 7, 2001.
Hon. Larry Craig,
U.S. Senate, Hart Senate Office Building, Washington, DC.
    Dear Senator Craig: Thank you for the opportunity to appear before 
the Committee on Energy and Natural Resources as the Assistant 
Secretary for Environment, Safety and Health nominee at the U.S. 
Department of Energy.
    Enclosed for the record are the answers to the post hearing 
questions submitted to me in writing by you.
    Please let me know if I can be of any further assistance.
            Sincerely,
                                                   Beverly A. Cook.

[Enclosures]
                Response to Question From Senator Craig

    Question. The Department of Energy is not regulated by the Nuclear 
Regulatory Commission for most of its activities--the Yucca Mountain 
Program being a notable exception. Instead, DOE ensures the safety of 
its operations through a series of internal ``DOE Orders'' and 
directives. Some feel this system of orders is in need of comprehensive 
reform. If confirmed, would you propose any reform to this system?
    Answer. Based on my management experience at the Department of 
Energy, I agree that DOE should take a careful look at its current 
system of orders and directives to assure that work is done as safely 
and efficiently as possible. DOE has already begun an effort to 
reexamine its safety management system. As part of that effort, we will 
be looking to clarify or streamline our requirements and standards to 
better address the changing DOE mission and hazards, with a goal of 
facilitating innovative cleanup approaches, reducing costs, and 
assuring protection of workers. If confirmed as Assistant Secretary for 
Environment, Safety and Health, this would be one of my top priorities.
                                 ______
                                 
                                                 December 11, 2001.
Hon. Pete Domenici,
U.S. Senate, Hart Senate Office Building, Washington, DC.
    Dear Senator Domenici: Thank you for the opportunity to appear 
before the Committee on Energy and Natural Resources as the Director of 
Civilian Radioactive Waste Management nominee at the U.S. Department of 
Energy.
    Enclosed for the record are the answers to the post hearing 
questions submitted to me in writing by you.
    Please let me know if I can be of any further assistance.
            Sincerely,
                                                 Margaret S.Y. Chu.
[Enclosures]

              Responses to Questions From Senator Domenici

      THE NEED FOR STUDY OF ALTERNATIVE STRATEGIES FOR SPENT FUEL

    Question 1. Existing nuclear power plants, especially with license 
renewals, will generate spent fuel that far exceeds the capacity of 
Yucca Mountain. The nation will need to either begin work on another 
repository very quickly after opening Yucca Mountain, or technologies 
need to be developed for better utilization of Yucca Mountain--along 
with changes in the enabling legislation.
    Do you concur that we need to explore options for management of 
spent fuel that might lead to far lower toxicity of the final waste 
products? As you know, such work could enable the residue from far more 
spent fuel to be placed in Yucca Mountain while still generating far 
less radio toxicity than is currently planned for the Mountain.
    Answer. Senator, I understand that there are promising technologies 
that are currently being investigated to reduce the volume and 
radiotoxicity of nuclear materials. When these technologies have 
matured, I believe that they could complement and possibly enhance the 
management of our nuclear waste.
    If confirmed as the Director of the Office of Civilian Radioactive 
Waste Management, I will vigorously pursue the authority under the Act 
to develop a geologic repository, and will remain open to the 
possibilities that new technologies may offer in enhancing the overall 
geologic disposal system.

          THE ROLE OF SCIENCE IN EVALUATION OF YUCCA MOUNTAIN

    Question 2. All sides of the debate over Yucca Mountain talk about 
the need for good science in reaching decisions on the repository. With 
your background, you are well suited to evaluating and leading that 
science.
    Do you concur with the importance of using the best scientific 
knowledge as decisions about any repository are reached?
    Answer. Yes, I do concur. I believe that not only must we use the 
best science available, but also we must communicate this information 
to the public who are vitally interested in our efforts. I experienced 
this first-hand in my involvement with the Waste Isolation Pilot Plant, 
in Carlsbad, New Mexico. My years as a scientist in our national 
laboratory system have led me to believe that informed, science-based 
decisions must be made so that both the public and our policy makers 
will have high confidence in the decisions we make to manage our 
nuclear materials.

        LICENSING OF YUCCA MOUNTAIN ONLY FOR RETRIEVABLE STORAGE

    Question 3. One attractive alternative to achieve faster movement 
of spent fuel from the many spent fuel storage sites around the country 
might be to consider that the Yucca Mountain facility be licensed only 
for retrievable storage for 300 years, while continued research into 
alternative options is pursued.
    I realize this would take congressional action to make this change, 
but would you agree that it should be very simple to license Yucca 
Mountain for such an interim storage mode?
    Answer. I have not looked at this option, because if confirmed, my 
responsibility would be to carry out what has been mandated under the 
Nuclear Waste Policy Act.
                                 ______
                                 
                                                 December 11, 1001.
Hon. Maria Cantwell,
U.S. Senate, Hart Senate Office Building, Washington, DC.
    Dear Senator Cantwell: Thank you for the opportunity to appear 
before the Committee on Energy and Natural Resources as the Assistant 
Secretary for Environment, Safety and Health nominee at the U.S. 
Department of Energy.
    Enclosed for the record are the answers to the post hearing 
questions submitted to me in writing by you.
    Please let me know if I can be of any further assistance.
            Sincerely,
                                                   Beverly A. Cook.
[Enclosures]

              Responses to Questions From Senator Cantwell

    Question 1. In recent months the Bush Administration has taken 
steps that reduce the scope and effectiveness of the Office of 
Environmental Safety and Health; for example some oversight activities 
performed by the office have been stopped because they are seen as too 
obtrusive. I am concerned that these actions--or inactions--could 
amount to an attempt to dismantle this important worker and 
environmental protection office in the Department of Energy. Please 
specify for the record what you see as the future of the Office of 
Environmental Safety and Health.
    Answer. The Office of Environment Safety and Health now plays and 
will continue to play a key part in the Department of Energy's mission. 
One of the goals of recent actions taken to restructure the Department 
was to better direct and focus the Office of Environment, Safety, and 
Health, not dismantle it. I strongly believe that DOE should set clear 
environment, safety, and health goals and measure its success by how 
well it meets those goals. The Office of Environment, Safety and Health 
will be at the heart at that effort, and will continue to serve as a 
corporate asset in assessing, facilitating, and achieving continuous 
improvement in safety management.
    Question 2. The Department of Energy's operations at Hanford are of 
critical importance to me and to my constituents in Washington State. 
Given your long career within the Department of Energy, you are no 
doubt well aware of what is going on at Hanford and the problems faced 
there. Please describe your position on environmental and safety 
practices at Hanford. What do you see as the critical difficulties at 
Hanford, and how would you handle them as Assistant Secretary? Finally, 
please describe what steps you will take to strengthen and improve DOE 
outreach and coordination with worker health and safety advocacy groups 
at Hanford.
    Answer. Through my experience as a DOE program and field office 
manager, I know that environmental and safety practices at Hanford 
continue to improve over past performance. At the same time, the DOE 
Hanford site has some very unique and difficult issues to address as a 
result of past missions and practices. The condition of some of the 
facilities and the composition of some of the waste streams are not 
well understood. Remediation of those facilities and waste streams will 
be extremely expensive and take a very long time, given current 
technologies and practices. The Assistant Secretary of Environmental 
Management is reviewing the plans for remediation of the Hanford site, 
looking at using new technology and other ways to complete that work in 
a safe, cost effective and timely manner. It will be the responsibility 
of the Office of Environment Safety and Health to assist in this effort 
and assure the protection of the environment and worker and public 
health and safety.
    I will take a careful look at current outreach programs at Hanford 
and all of the DOE sites in order to assure effective coordination with 
worker health and safety advocacy groups. I have been a worker in the 
DOE complex, at many of the field facilities, for almost 27 years, and 
I am interested in assuring that the worker and community health issues 
are addressed appropriately.
    Question 3. The Energy Employees Occupational Illness Compensation 
Program Act of 2000 established a program to compensate individuals who 
developed illnesses as a result of their employment in nuclear weapons 
production-related activities. This initiative is especially important 
to me given the large number of affected workers in the state of 
Washington. However, since the passage of the act, the Department of 
Energy has not moved to properly implement its portion of the worker 
assistance program, leaving many sick workers and their families on 
their own to navigate complex worker compensation benefits programs and 
pay expensive medical bills.
    I find this very distressing. These men and women worked very hard 
under difficult conditions to produce nuclear weapons and help America 
win the Cold War. Some of them are now seriously ill, and the 
Department of Energy is doing everything it can to limit eligibility 
and reduce its own liability.
    Please explain how you would implement the Energy Employees 
Occupational Illness Compensation Program with Congressional intent. It 
is important that you do this without further obfuscation or delay.
    Answer. One of my first priorities will be to evaluate how the 
Department of Energy is implementing its responsibilities under the 
Energy Employees Occupational Illness Compensation Program and assure 
that it is meeting the goals set out in the legislation. While the 
Department of Labor has the lead in administering the program, I 
recognize that the Department of Energy has important responsibilities 
as well. I understand that DOE has made significant progress in meeting 
its responsibilities to identify and assist workers, and that all 
agencies involved in implementing the Energy Employees Occupational 
Illness Compensation Program, including the Department of Energy under 
Secretary Abraham, are committed to fairly and efficiently 
administering this program. Be assured that I will work to see this 
progress continue.
    Question 4. Additionally, there are several specific areas of the 
Energy Employees Occupational Illness Compensation Program I would like 
you to address. First, regarding the DOE's State Assistance Program: 
Subtitle D of the Energy Employees Occupational Illness Compensation 
Program Act instructs the Department of Energy to assist workers with 
``other'' illnesses (not cancer, silicosis, or beryllium disease) in 
determining if their illnesses are related to working in nuclear 
weapons production. DOE is to assist workers found to have 
occupationally-related illnesses in obtaining state workers 
compensation benefits.
    I understand, however, that the Department of Energy has proposed 
rules that reimpose the very barriers Subtitle D was written to help 
workers avoid, and that DOE has threatened to refuse to implement 
Subtitle D. The DOE is ignoring the recommendations of the federally 
chartered Workers Advisory Committee on how to implement this law. As 
Assistant Secretary, do you believe it is your duty to implement the 
legislation in full? How will you implement Subtitle D in a way that 
fulfills the Department of Energy's obligations to its workers?
    Answer. As Assistant Secretary, I would be committed to 
implementing the Energy Employees Occupational Illness Compensation 
Act, including Subtitle D that affects DOE workers who have become ill 
because of exposure to toxic substances at a DOE site. I understand 
that the proposed rule to implement the program was issued in September 
and that the Department is in the process of reviewing comments, 
including those from the Advisory Committee, and drafting the final 
rule. If confirmed, I will work to assure that DOE's implementation of 
Subtitle D of the Energy Employees Occupational Illness Compensation 
Program Act complies with the law and helps workers.
    Question 5. I am also concerned about another area of the Energy 
Employees Occupational Illness Compensation Program--interagency 
cooperation. Proper implementation of the program requires the 
cooperation of DOE, the Department of Labor and Health and Human 
Services. This will certainly pose ongoing challenges for you as 
Assistant Secretary. Since each agency has its own expertise--labor 
runs compensation programs, DOE runs the weapons complex, HHS does 
health studies--how do you plan to handle the inevitable turf battles 
and work to advance the larger goals of the program? Furthermore, since 
each agency will require the same documents and will need to share many 
types of data, it would be logical for the agencies to develop shared 
information management systems. Since this is a brand new program, the 
opportunity exists for developing such a system. Do you have plans to 
develop a shared data and information management system for the Energy 
Employees Occupational Illness Compensation Program?
    A final point of concern regarding the Energy Employees 
Occupational Illness Compensation Program is the Advisory Committee on 
Radiation and Worker Health at HHS. I believe the current composition 
of this committee's membership is unsatisfactory. As appointed by the 
White House, this HHS-staffed committee includes numerous DOE 
contractor representatives and only one worker representative. Both of 
these aspects run directly counter to Congressional direction in the 
statute. The presence of several DOE-related members also raises clear 
conflict of interest issues. If confirmed as Assistant Secretary, will 
you look into this matter and take all necessary steps to remedy any 
improprieties?
    Answer. The Energy Employees Occupational Illness Compensation Act, 
and the accompanying Executive Order, provided clear roles for the 
three agencies drawing on the experience and expertise of each. The 
federal entitlement program is managed by the Department of Labor. The 
Department of Health and Human Services assists the Department of Labor 
by conducting dose reconstructions. The Department of Energy is 
responsible for providing worker records and data needed to support 
these efforts. There will be benefits and efficiencies to be gained 
from close cooperation between the agencies in obtaining records and 
maintaining databases and general information systems as well as in 
many other areas related to worker's compensation. Direct and continued 
dialog at the highest levels between agencies can help to clarify each 
agency's roles and responsibilities and provide the best value for the 
taxpayer. I intend to ensure that dialog occurs. Regarding the members 
of the Advisory Committee on Radiation and Worker Health at HHS, the 
membership of the Committee was appointed by the White House upon 
recommendations made by the Secretary of Health and Human Services. I 
understand that DOE had no input into this matter.
    Question 6. I understand a measure passed the U.S. House of 
Representatives that would require DOE to enforce OSHA standards for 
occupational safety with the DOE nuclear weapons complex. Please 
provide your analysis of this legislation. In general, do you support 
the application of OSHA standards for occupational safety within the 
DOE nuclear weapons complex?
    Answer. I have not had an opportunity to review the proposed 
legislation and do not have an analysis of that legislation at this 
time. I certainly understand the intent of the legislation, to provide 
DOE workers a level of protection equivalent to those provided by OSHA 
standards, and that is a goal that should be met. In fact, through DOE 
directives and integrated safety management systems, DOE already 
requires its contractors to meet industrial safety standards that are 
the same or comparable to those established by the OSHA.
    Question 7. An important part of worker safety and health in the 
DOE weapons complex is the medical monitoring program for former 
workers, which is administered by the University of Washington and paid 
for by grants from the Office of Environmental Safety and Health. As 
Assistant Secretary, would you continue to support these medical 
screening and monitoring program? Will you work to ensure adequate 
funding remains in place for this critical program?
    Answer. I support medical screening and monitoring programs that 
assist in determining health issues of workers associated with their 
work history. The Former Worker Medical Surveillance Program began in 
1996 and now has 12 ongoing projects at 10 DOE sites, including the 
Hanford site. We expect that most projects will have completed medical 
screening of interested former workers within the next several years. I 
will review the current medical monitoring programs to evaluate the 
effectiveness of the programs, and it will be my responsibility to 
assure that adequate requests are made to Congress to fund appropriate, 
effective programs in this area.
    Question 8. A final area of concern pertains to regulatory 
authority over the DOE nuclear weapons complex. Please articulate your 
position on external regulation of the nuclear weapons complex while 
maintaining DOE internal oversight.
    Answer. While external regulation may be appropriate for specific 
activities or facilities, such as spent fuel storage facilities, many 
of DOE's activities are unique. Current regulations promulgated by 
other agencies are not adequate to provide comprehensive, effective 
regulation of many of DOE's activities at this time. We have seen that 
it is possible to manage certain DOE facilities with a combination of 
external and internal regulation, as is done at DOE's Idaho National 
Engineering and Environmental Laboratory (INEEL). The Nuclear 
Regulatory Commission regulates two separate spent fuel storage 
facilities at INEEL and, as the Manager of the DOE's Idaho Operations 
Office, it was my responsibility to hold NRC licenses for those 
facilities. This is certainly an issue we will continue to follow, but 
at this time, I believe it would be difficult to turn entirely to 
external regulation and effectively assure the protection of the 
environment, our workers and the public.
                                 ______
                                 
                                                  December 7, 2001.
Hon. Craig Thomas,
U.S. Senate, Hart Senate Office Building, Washington, DC.
    Dear Senator Thomas: Thank you for the opportunity to appear before 
the Committee on Energy and Natural Resources as the Assistant 
Secretary for Environment, Safety and Health nominee at the U.S. 
Department of Energy.
    Enclosed for the record are the answers to the post hearing 
questions submitted to me in writing by you.
    Please let me know if I can be of any further assistance.
            Sincerely,
                                                   Beverly A. Cook.
[Enclosures]

                Response to Question From Senator Thomas

    Question. The President's National Energy Policy recommends that 
the President direct the Secretary of Energy to explore potential 
opportunities to develop educational programs related to energy 
development and use. This should include possible legislation to create 
public education awareness programs about energy. Can you tell me what 
the Administration has done thus far or may plan to do concerning this 
initiative?
    Answer. The following are some of the Administration's initiatives 
to promote public awareness and education on energy issues:

  <bullet> July 27, 2001--Sec. Abraham announced a number of steps to 
        increase electricity generation from wind power in Illinois

    In an effort to improve and expand renewable energy resources in 
the state of Illinois, a DOE lab developed a wind resource map and 
sponsored a wind energy workshop which was held on November 27, 2001 in 
Illinois. The projects could lead to 3,000 to 9,000 megawatts of wind 
power peak capacity and serve up to 2 million homes.

  <bullet> November 28, 2001--Joint DOE and Dept. of Interior Summit on 
        Renewable Energy on Federal Land

    Secretary Gale Norton co-hosted the summit with Assistant Secretary 
for Energy Efficiency and Renewable Energy Dave Garman at the Interior 
Department in Washington, DC. Panels of experts in the private and 
public sector came to talk about how the federal government can expand 
its efforts to find renewable energy resources on federal property. The 
Summit was one of the recommendations in the President's National 
Energy Policy released in May.

  <bullet> November 7, 2001--Energy Star<Register> Product Expo Brings 
        Efficiency to Market

    In the first gathering of its kind, the U.S. Department of Energy 
(DOE) brought together manufacturers and retailers of high-efficiency 
appliances and lighting products under one roof, opening the Energy 
Star<Register> Product Expo to the public Nov. 9-10. Via taped message, 
Secretary of Energy Spencer Abraham offered encouragement to consumers 
to ``Look for the Energy Star<Register> label.''

  <bullet> October 5, 2001--Energy Secretary Launches ``Energy 
        Awareness Month'' and visited home receiving Weatherization 
        Assistance

    Secretary of Energy Spencer Abraham launched ``Energy Awareness 
Month'' by accompanying professional crews installing energy efficient 
Weatherization improvements in a home in Arlington, Va. The 
improvements, managed by Community Housing Partners, are being 
conducted through the U.S. Department of Energy's Weatherization 
Assistance Program.

  <bullet> November 27, 2001--U.S. Department of Energy Celebrates 25th 
        Anniversary of Weatherization Assistance Program

    The U.S. Department of Energy's (DOE) Weatherization Assistance 
Program celebrated its 25th anniversary by commemorating the 
weatherizing of the five-millionth home under the program. Assistant 
Secretary for Energy Efficiency and Renewable Energy David Garman 
delivered keynote remarks at today's National Weatherization Training 
Conference in Atlanta, Ga., attended by officials from state 
Weatherization offices and 970 local agencies that carry out home 
Weatherization improvements.

  <bullet> September 17, 2001--Energy Department to Award Over $30 
        Million to Develop New Bioproduct Technologies and Train 
        Graduate Students in the Bioproducts Field

    Secretary of Energy Spencer Abraham announced that the U.S. 
Department of Energy (DOE) will invest $30 million over the next three 
to five years in 11 projects to develop process technology to produce 
chemicals, plastics, materials and other products from plant matter and 
other natural waste materials. The funds will also be used to establish 
University education and training programs in the area of bioproducts. 
Many of the projects will be cost-shared approximately equally between 
DOE and its partners.

  <bullet> October 3, 2001--Energy Department, American Solar Energy 
        Society Announce Public Tours of Solar Powered Home

    On October 13, homes powered by the clean, non-polluting and 
renewable power of the sun will be open to people interested in seeing 
first-hand how solar energy is being used in today's homes. The U.S. 
Department of Energy (DOE) is co-sponsoring a tour of more than 800 
homes in 43 states and the District of Columbia.

  <bullet> July 6--Secretary Abraham held town hall meeting with Rep. 
        Judy Biggert

    Secretary Abraham traveled to DOE's Argonne National Laboratory to 
co-host a town hall meeting with Congresswoman Judy Biggert to address 
the concerns of constituents on energy issues. The town hall was 
carried live by local networks.

  <bullet> October 1, 2001--Energy Secretary Abraham Announces National 
        Energy Awareness Month 2001

    October 2001 was Energy Awareness Month--the 22nd annual energy 
awareness campaign sponsored by the Department of Energy (DOE). The 
goal of Energy Awareness Month is to promote a greater public 
understanding and awareness of energy sources, how they can be used 
wisely and effectively, and the importance of energy to the economic 
prosperity and future of the United States. The Secretary hosted events 
every week around the country to participate in this education effort.

  <bullet> October 9, 2001--Energy Secretary, EPA Administrator Whitman 
        Launch 2002 Fuel Economy Guide

    Administrator Whitman joined Sec. Abraham in a tour at DOE of the 
fuel efficient leaders for 2002 as they unveiled the newest edition of 
the web based Fuel Economy Guide. These guides help consumers select 
the ``safest, cleanest, and most fuel-efficient vehicles'' in the 
marketplace. The web site is produced in partnership with EPA and the 
National Highway Transportation Safety Administration.
                                 ______
                                 
Hon. Jeff Bingaman,
Chairman, Senate Energy and Natural Resources Committee, U.S. Senate, 
        Washington, DC.
    Dear Mr. Chairman: Enclosed you will find my response to the 
written questions following my confirmation hearing before the Senate 
Energy and Natural Resources Committee on Wednesday, December 5, 2001.
    If I can be of further assistance, please let me know.
            Sincerely,
                                         Rebecca W. Watson,
       Assistant Secretary--Land and Minerals Management Designate.
[Enclosures]
               Response to Question From Senator Bingaman
                            fire management
    Question. After the National Fire Plan was put into place last 
year, the Secretary of the Interior created the Office of Wildland Fire 
Coordination to ensure implementation of the plan, coordinate all of 
the agencies' fire policy and measure performance and accountability. 
It is my understanding that the Secretarial order establishing this 
Office expires on December 22, 2001. I also raised this issue with 
Kathleen Clarke during her nomination hearing a [few] weeks ago because 
BLM plays a major role in Federal wildland fire policy and 
implementation. Nonetheless, it is my understanding that the Department 
has made no plans to continue funding and supporting this office beyond 
December 22. Given a recent GAO report stating that the Federal 
government needs to increase interagency coordination of fire 
management, it seems very important to keep this Office up and running. 
Do you agree?
    Answer. I agree that the Office of Wildland Fire Coordination is 
necessary to increase interagency coordination of wildland fire 
management. I understand that the existing Secretarial Order that 
established that office will expire on December 22, 2001. I also 
understand that the Secretary is taking steps to continue the Fire 
Coordination Office. This will ensure that coordination of wildland 
fire management issues in general and the National Fire Plan 
specifically will be sustained. This action also reflects the 
Department's commitment to collaboration with its many external 
partners, and specifically on crosscutting issues as critical as fuels 
management, restoration and wildfire suppression. I support the 
Secretary's actions to continue the Wildland Fire Coordination Office 
and I look forward to working with that staff to advance the goals and 
objectives of the National Fire Plan.
                                 ______
                                 
Hon. Larry E. Craig,
U.S. Senate, Washington, DC.
    Dear Senator Craig: Enclosed you will find my response to the 
written questions following my confirmation hearing before the Senate 
Energy and Natural Resources Committee on Wednesday, December 5, 2001.
    If I can be of further assistance, please let me know.
            Sincerely,
                                         Rebecca W. Watson,
       Assistant Secretary--Land and Minerals Management Designate.
[Enclosures]

                Response to Question From Senator Craig

    Question. The BLM uses Oust as a means of controlling cheat grass. 
Earlier this year, farmers in Idaho, who are adjacent to a control 
area, discovered impacts ranging from malformed crops to areas of no 
growth in their crops. Current estimates put the crop damage to 
potatoes, sugar beets, wheat, barley, corn, and alfalfa at 
approximately $100 million. It is important that BLM work with states 
and farmers to prevent such an event from happening again.
    Will you commit to include in the BLM budget request for fiscal 
year 2003 funding to provide compensation payments to these growers?
    Answer. I am not familiar with the details concerning this issue. 
However, if confirmed, I will review this matter and look forward to 
working with you to address your concerns.
                                 ______
                                 
Hon. Pete V. Domenici,
U.S. Senate, Washington, DC.
    Dear Senator Domenici: Enclosed you will find my response to the 
written questions following my confirmation hearing before the Senate 
Energy and Natural Resources Committee on Wednesday, December 5, 2001.
    If I can be of further assistance, please let me know.
            Sincerely,
                                         Rebecca W. Watson,
       Assistant Secretary--Land and Minerals Management Designate.

[Enclosures]

              Responses to Questions From Senator Domenici

                              PUBLIC LAND

    1. New Mexico has a substantial amount of public land. With this 
amount of land comes the problem of what will and will not be allowed 
upon it. Whether the issue is drilling for oil and gas, mining, or 
recreational use of the land, the problem generally involves access.
    Question. Will you work to balance the goals of protecting these 
lands and their natural resources, while at the same time working to 
ensure that the land is accessible and mined responsibly?
    Answer. Yes. I am committed to working with Secretary Norton to 
ensure that there is a balance of appropriate uses on lands 
administered by the BLM through the land use planning process and 
adherence to all environmental laws. If confirmed, I will strive to 
achieve this balance for all stakeholders through consultation, 
communication, and coordination all in the service of conservation.

                            ENERGY/OIL & GAS

    1. The Nation is facing a silent energy crisis. Energy independence 
should be an important part of the Interior Department's mandate. Such 
independence would include opening up responsible mining opportunities 
and examining possibilities for exploration and development.
    Question A. How will you work to protect resources and the 
environment while encouraging sensible mining practices for energy 
independence?
    Answer. I agree that ensuring our Nation's energy security is of 
paramount importance. I fully support the President's National Energy 
Policy which calls for increasing and diversifying our Nation's energy 
sources, while ensuring sound environmental management. If confirmed, I 
will work collaboratively with all affected parties to protect the 
environment while identifying and implementing effective means to 
explore and develop our Nation's energy resources.
    Question B. Will you encourage domestic drilling and allow access 
to public lands for drilling where known resources exist and little 
environmental impact would result?
    Answer. If confirmed, I will work with Secretary Norton to identify 
energy resources available for development, and promote 
environmentally-sound access to these critical energy resources 
consistent with land use planning.
    Question C. What, if anything, do you plan to do to develop and 
utilize resources from public lands to produce more energy?
    Answer. If confirmed, I will work to implement the President's 
Energy Policy which encourages development of both renewable and 
nonrenewable energy resources on public lands. I will work with all 
interested parties to ensure that land use planning is conducted 
thoroughly, yet expeditiously.
    Question D. Will materials produced from the public lands be made 
available for the production of bioenergy?
    Answer. Yes. Utilization of biomass for energy production is 
consistent with the National Energy Policy objective to increase 
America's use of renewable and alternative energy sources. Biomass 
utilization is also consistent with the goals and objectives of the 
National Fire Plan to reduce accumulations of woody materials that 
create a fire hazard, and threaten communities, forests and rangelands 
with catastrophic wildfire.
    Question D. While the situation is improving, many drillers are 
finding undue delays in drilling permit approvals in New Mexico. Will 
you work to resolve this problem, especially in light of our nation's 
dependence on foreign oil?
    Answer. I am aware that the efficient processing of such permits 
can help develop a secure source of domestic energy. If confirmed, I 
will work to ensure that all parties work together to devise a 
streamlined and efficient process for reviewing and approving drilling 
permits, consistent with all planning and environmental laws.

                             GRAZING ISSUES

    1. Will you work to reduce the terrible backlog of grazing permit 
renewals within the BLM? This effects many grazers in the west, to no 
fault of their own. Congress has been providing money and legislative 
directives to resolve this situation for several years now.
    Question. Will you see that this problem is resolved as soon as 
possible?
    Answer. I am committed to working with the BLM Director with the 
goal of eliminating this backlog as quickly as possible. I understand 
the frustration and uncertainty the many grazers in the west are 
confronted with and, if confirmed, will work to provide them with a 
resolution, while meeting all legal requirements.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                      Interstate Mining Compact Commission,
                                       Herndon, VA, August 1, 2001.
Hon. Jeff Bingaman,
Chairman, Energy and Natural Resources Committee, U.S. Senate, 
        Washington, DC.
    Dear Mr. Chairman: On behalf of the member states of the Interstate 
Mining Compact Commission (IMCC), I am writing to endorse President 
Bush's nomination of Jeffrey D. Jarrett to serve as the Director of the 
Office of Surface Mining (OSM) in the U.S. Department of the Interior. 
As Governor Tom Ridge's representative for the Commonwealth of 
Pennsylvania to the Compact, we have had the privilege of working with 
Mr. Jarrett for many years. He is a thoughtful, dedicated public 
servant who has effectively represented the interests of Pennsylvania 
in the Compact, while helping to guide the overall direction and work 
of the Compact.
    Mr. Jarrett has a wide range of experience and perspectives on the 
critical issues that he will be called upon to manage at OSM. He also 
demonstrates key leadership qualities, including an ability to balance 
interests and reach consensus, to fully and expeditiously comprehend 
the essence of complex issues presented for his consideration, and to 
work with a variety of interest groups. He is professional in his 
dealings with others and has always provided us with meaningful counsel 
and advice based on well reasoned and well articulated positions.
    We urge you to schedule a hearing on the nomination of Mr. Jarrett 
as soon as possible and to approve his nomination expeditiously 
thereafter. Should you have any questions or require additional 
information, please do not hesitate to contact me.
            Sincerely,
                                         Gregory E. Conrad,
                                                Executive Director.
                                 ______
                                 
                                  State of Alabama,
                        Department of Industrial Relations,
                                   Montgomery, AL, August 15, 2001.
Hon. Jeff Bingaman,
Chairman, Energy and Natural Resources Committee, U.S. Senate, 
        Washington, DC.
    Dear Mr. Chairman: As Governor Don Siegelman's representative to 
the Interstate Mining Compact Commission (IMCC) for the state of 
Alabama, I am writing to endorse President Bush's nomination of Jeffrey 
D. Jarrett to serve as the Director of the Office of Surface Mining 
(OSM) in the U.S. Department of the Interior.
    Mr. Jarrett's wide range of experience with industry, state and 
federal agencies will be invaluable in managing the critical issues 
facing OSM. He has a reputation for being able to balance interests and 
reach consensus, effectively dealing with difficult technical and 
political issues, and for working with a variety of interest groups.
    We urge you to schedule a hearing on the nomination of Mr. Jarrett 
as soon as possible and to approve his nomination.
            Sincerely,
                                            Alice McKinney,
                                                          Director.
                                 ______
                                 
                          Commonwealth of Kentucky,
    Natural Resources and Environmental Protection Cabinet,
                                    Frankfort, KY, August 30, 2001.
Hon. Jeff Bingaman,
Chairman, Energy and Natural Resources Committee, U.S. Senate, 
        Washington, DC.
    Dear Senator Bingaman: I am writing to support President Bush's 
nomination of Mr. Jeffrey D. Jarrett as the Director of the Office of 
Surface Mining (OSM) in the U.S. Department of the Interior. Through 
our many years of participation in the Interstate Mining Compact 
Commission, we have had the opportunity and privilege of working with 
Mr. Jarrett. The compact is a multi-state governmental organization 
representing the natural resources and environmental protection 
interest of its 20 member states. We have always found him to be a very 
insightful and dedicated public servant who conducts himself in a truly 
professional manner.
    Mr. Jarrett has extensive experience and a thorough perspective on 
the many critical issues that he would face should he be called upon to 
manage OSM. I have been advised that he demonstrates strong leadership 
abilities, fully and expeditiously understands the essence of complex 
issues presented for his consideration, and can work with a variety of 
interest groups. He is known for always being courteous and reasonable 
in his dealings with others and has always provided the member states 
with meaningful counsel and advice on soundly reasoned and well-
articulated positions.
    I strongly urge your committee to schedule a hearing on the 
nomination of Mr. Jarrett as quickly as possible and to approve his 
nomination shortly thereafter. Should you have any questions or 
concerns about this matter please do not hesitate to contact me at 
(502) 564-3350.
            Sincerely,
                                         James E. Bickford,
                                                         Secretary.
                                 ______
                                 
                                                  December 5, 2001.

  Allegheny Defense Project <bullet> American Lands Alliance <bullet> 
American Wildlands <bullet> American Rivers <bullet> Clearinghouse for 
    Environmental Advocacy Research <bullet> Citizen's Coal Council 
  <bullet> Colorado Environmental Coalition <bullet> CO PIRG Citizen 
 Lobby <bullet> Defenders of Wildlife <bullet> Ecology Center <bullet> 
    Endangered Species Coalition <bullet> Finger Lakes Forest Watch 
 Congress <bullet> Florida PIRG <bullet> Friends of the Earth <bullet> 
Idaho Sporting Congress, Inc. <bullet> Indiana Forest Alliance <bullet> 
    Mineral Policy Center <bullet> MoveOn.org <bullet> Montana PIRG 
 <bullet> Montana Environmental Information Center <bullet> Physicians 
for Social Responsibility <bullet> San Juan Citizens Alliance <bullet> 
  The Wilderness Society <bullet> US PIRG <bullet> Utah Environmental 
    Congress <bullet> Wyoming Outdoor Council <bullet> 20/20 Vision

Re: Nomination of Rebecca W. Watson for Assistant Secretary for Land 
and Minerals Management, Interior Department

    Dear Senator: We are writing to express our concerns regarding 
Rebecca W. Watson, who has been nominated as Assistant Secretary for 
Land and Minerals Management. The Assistant Secretary for Land and 
Minerals Management is one of the most important posts at the 
Department of the Interior, with responsibility for overseeing the 
operations and policies of the Bureau of Land Management, the Minerals 
Management Service and the Office of Surface Mining and Enforcement. 
This position carries with it the responsibility of balancing the use 
of our public lands for livestock grazing, and energy and mineral 
production with protection of a host of cultural, archeological, 
historic and environmental values.
    For that reason we would like to urge your close scrutiny of Ms. 
Watson for this important position. As a partner at the Helena law firm 
of Gough, Shanahan, Johnson & Waterman, Ms. Watson represented 
extractive industries in a number of cases that sought to weaken 
environmental safeguards imposed on those industries by state law.
    For example:

  <bullet> Ms. Watson unsuccessfully represented defendants, including 
        the Seven-Up Pete Joint Venture and Canyon Resources 
        Corporations in a 1999 clean water case that sought to uphold 
        the rights of Montanans to a clean and healthful environment 
        under the Montana constitution. The suit was filed because the 
        Montana Department of Environmental Quality had allowed the 
        Seven-Up Pete Joint Venture to pump, without treatment, 
        millions of gallons of arsenic-tainted water into the Landers 
        Fork and Blackfoot Rivers. The Montana Supreme court upheld the 
        constitution and affirmed Montanans right to a clean and 
        healthful environment. In response to this decision Watson 
        said, This is another blow at the economic vitality and at the 
        future of Montana and Montana's children.
  <bullet> In 1996, Ms. Watson represented a group called Montanans for 
        Common Sense Water Laws/Against Initiative 122. Initiative 122 
        would have required mining companies to remove carcinogens, 
        toxins, metals and nutrients prior to the release of mine 
        discharges into state waters. Although this initiative failed a 
        similar initiative banning the use of cyanide in mines passed 
        in 1998. In response to the passage of this initiative, Ms. 
        Watson published a paper entitled Democracy Is The Theory That 
        The Common People Know What They Want, And Deserve To Get It 
        Good And Hard,'' which outlined industry strategies for 
        defeating citizen initiatives. Key recommendations Ms. Watson 
        includes in this paper are; litigate early and often--don't 
        hold back to make the voters like you--they don't and raise 
        money early and raise enough. Ms. Watson cites an example in 
        1994 where the Oregon mining industry had to spend between $3-
        $4 million to defeat an initiative that proposed to restrict 
        open-pit mining by banning the use of cyanide.
  <bullet> Ms. Watson also represented opponents of the Upper Missouri 
        River Breaks National Monument designated by President Clinton. 
        This monument protects one of the last remaining intact areas 
        discovered by the Lewis and Clark expedition.
  <bullet> Ms. Watson further represented three landowners in a 
        challenge to the Montana Stream Access Law, a law that ensures 
        a citizen's right to use the state's rivers and streams for 
        recreation. This lawsuit was eventually thrown out by the U.S. 
        District Court.

    From 1993-1995, Ms. Watson represented a number of industries, 
including major multi-national businesses and national trade 
associations in the areas of mining, forest products, agriculture, and 
construction when she practiced law with the Washington D.C. law firm 
Crowell and Moring. While in Montana, Ms. Watson lobbied for a number 
of industries, including Golden Sunlight Mines, Inc., Redstone Gas 
Partners, the Montana Mining Association and Express Pipeline 
Partnership. All of these companies are involved in natural gas, coal 
bed methane or hardrock mining production.
    The responsibility for overseeing the Bureau of Land Management, 
Office of Surface Mining, and the Mineral Management Service is one 
that should not be taken lightly. Whoever holds this position will be 
called on to make important decisions regarding the use and the 
stewardship of America's public lands. Through her work in the private 
sector, Ms. Watson has consistently worked to undermine public health 
and environmental laws while trivializing citizens' access to the 
democratic process. We urge you to closely scrutinize Rebecca W. 
Watson's record and her ability to manage our public lands in a fair 
and unbiased manner.


</pre></body></html>
